<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-394]
[From the U.S. Government Printing Office]


                                                 S. Hrg. 110-394, Pt. 5
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009 

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3001

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2009 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               ----------                              

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               ----------                              

                             APRIL 2, 2008


         Printed for the use of the Committee on Armed Services

























DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
            2009--Part 5  EMERGING THREATS AND CAPABILITIES





















                                                  S. Hrg. 110-394 Pt. 5

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3001

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2009 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               __________

                             APRIL 2, 2008


         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

42-633 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  























                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                   JACK REED, Rhode Island, Chairman

EDWARD M. KENNEDY, Massachusetts     ELIZABETH DOLE, North Carolina
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
BILL NELSON, Florida                 SUSAN M. COLLINS, Maine
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   JOHN CORNYN, Texas
HILLARY RODHAM CLINTON, New York     MEL MARTINEZ, Florida

                                  (ii)





























                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
The Cooperative Threat Reduction Program and the Proliferation Security 
  Initiative at the Department of Defense, and Nuclear Proliferation 
        Programs at the National Nuclear Security Administration
                             april 2, 2008

                                                                   Page
Tobey, Hon. William H., Deputy Administrator for Defense Nuclear 
  Nonproliferation, National Nuclear Security Administration, 
  Department of Energy...........................................     3
Benkert, Joseph A., Principal Deputy Assistant Secretary of 
  Defense for Global Security Affairs, Department of Defense.....    16

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

                              ----------                              


                        WEDNESDAY, APRIL 2, 2008

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

THE COOPERATIVE THREAT REDUCTION PROGRAM AND THE PROLIFERATION SECURITY 
  INITIATIVE AT THE DEPARTMENT OF DEFENSE, AND NUCLEAR PROLIFERATION 
        PROGRAMS AT THE NATIONAL NUCLEAR SECURITY ADMINISTRATION

    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room SR-232A, Russell Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Reed and Dole.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff member present: Lynn F. Rusten, professional 
staff member.
    Staff assistants present: Kevin A. Cronin and Jessica L. 
Kingston.
    Committee members' assistants present: Elizabeth King, 
assistant to Senator Reed; Christopher Caple, assistant to 
Senator Bill Nelson; Jon Davey, assistant to Senator Bayh; 
Jennifer Cave, assistant to Senator Warner; and Lindsey Neas, 
assistant to Senator Dole.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. Good morning and welcome to our witnesses. I 
want to thank my ranking member, Senator Dole, for being with 
us this morning.
    This morning we have Will Tobey, the Deputy Administrator 
of the National Nuclear Security Administration (NNSA), and 
Joseph Benkert, Deputy Assistant Secretary of the Department of 
Defense (DOD) Policy Office. We welcome both of you back to the 
subcommittee.
    Mr. Benkert, congratulations on your recent nomination to 
be the Assistant Secretary of Defense for Global Security 
Affairs, the office which has policy responsibilities for the 
DOD Cooperative Threat Reduction (CTR) and other 
nonproliferation programs. Good luck.
    Mr. Benkert. Thank you.
    Senator Reed. Both the NNSA nonproliferation program and 
the CTR program received funding for fiscal year 2008 over and 
above the amount requested in the President's budget. In 
addition, the CTR program received new authorities to expand 
activities beyond the former Soviet Union.
    We look forward to hearing from each of you how the 
additional funds are being applied and the plans for using the 
new CTR authority. At the same time, we are interested in 
understanding how the nonproliferation partnership with Russia 
has changed and how it should continue to change in the future. 
With a rapidly growing economy, Russia is now able to become an 
equal partner with the United States in ensuring nuclear 
weapons and nuclear, radiological, chemical, and biological 
weapons, and usable materials and technologies are not stolen 
or fall into the wrong hands. I will be interested in your 
thoughts on how to maintain a close working relationship with 
Russia in light of the significant improvement in the Russian 
economic circumstances and the value of the ruble.
    Also on the agenda today are the issues of plutonium 
disposition, the second line of defense, megaports and Global 
Initiative for Proliferation Prevention (GIPP) for these 
programs at NNSA, and also the Russian chemical 
demilitarization program, Proliferation Security Initiative 
(PSI) at DOD.
    We have a lot to cover today. So I will now turn to Senator 
Dole for an opening statement. Senator Dole?

              STATEMENT OF SENATOR ELIZABETH DOLE

    Senator Dole. Thank you very much, Mr. Chairman. I 
certainly want to join you in welcoming our witnesses this 
morning.
    I look forward to hearing your testimony on the DOD CTR 
program and the NNSA nuclear nonproliferation programs. We 
welcome your thoughts on these ongoing programs and on what 
more the United States Government might do to address the 
threat of proliferation in the post-September 11 world. Weapons 
of mass destruction (WMD) getting into the hands of terrorists, 
of course, remains the preeminent threat to our country and our 
allies, and the Director of National Intelligence, I believe 
recently stated in testimony before the Senate Armed Services 
Committee exactly this point. The programs for which both of 
you are responsible are aimed at reducing that threat and 
managing the consequences, should such weapons ever get into 
the wrong hands or be utilized. These programs are, indeed, 
absolutely vital to our national security.
    The CTR program was an imaginative response to the 
unprecedented situation that arose at the end of the Cold War 
when Russia and the other states of the former Soviet Union 
were left with the legacy of large WMD stockpiles and 
infrastructure no longer needed or wanted, but expensive to 
eliminate or safeguard.
    Now with the new authorities granted by Congress last year, 
as the chairman has mentioned, and given the growing terrorist 
threats we face, CTR has the opportunity to expand into a 
program that can address nonproliferation threats and 
opportunities existing beyond the borders of the former Soviet 
Union.
    The Department of Energy (DOE) also has an impressive and 
growing array of nuclear nonproliferation programs, including 
megaports and the Global Threat Reduction Initiative (GTRI) 
that are reducing the opportunities for terrorists to access 
and transport nuclear or radiological materials worldwide.
    The plutonium disposition program, however, faces daunting 
challenges in Russia, the United States, and in Congress. We 
look forward to a dialogue with you, Mr. Tobey, about the way 
forward for that program.
    More generally, we are interested in our witnesses' 
assessment of the progress made to date and your vision and 
recommendations regarding how these programs in both 
departments should proceed in the future.
    I look forward to the testimony of our witnesses today as 
to whether the fiscal year 2009 and Future Years Defense 
Program reflect the proper prioritization and sufficient 
resources and authorities for addressing the continuing threat 
that we face. I believe that we in Congress must maintain and 
strengthen our support for these vital nonproliferation 
programs now and in the future.
    Let me again join our chairman in thanking both of you for 
your service and for appearing before us today. Thank you.
    Senator Reed. Thank you, Senator Dole.
    Mr. Tobey and Mr. Benkert, your statements are part of the 
record. There is no need to read them. If you want to highlight 
and summarize, we would appreciate that, and we look forward to 
your testimony. We will begin with Mr. Tobey.

 STATEMENT OF HON. WILLIAM H. TOBEY, DEPUTY ADMINISTRATOR FOR 
  DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
              ADMINISTRATION, DEPARTMENT OF ENERGY

    Mr. Tobey. Thank you, Mr. Chairman. It is a great pleasure 
to be here this morning for a couple of reasons. First of all, 
I am deeply proud of our programs and the men and women who 
execute them, and it is always a pleasure to talk about them. I 
also am deeply grateful to the members of this committee for 
the strong support that they have given to these programs. I 
believe they are important to U.S. national security, and we 
enthusiastically execute them.
    The fiscal year 2009 budget request for the Office of 
Defense Nuclear Nonproliferation totals $1.247 billion. This 
amount will allow us to continue our mission to detect, secure, 
and dispose of dangerous nuclear and radiological materials, 
strengthen the international nonproliferation partnerships, and 
meet the evolving proliferation and international security 
threats.
    Specifically, this funding will advance defense nuclear 
nonproliferation priorities to enhance nuclear capabilities to 
detect and interdict nuclear and radiological materials at key 
seaports and border crossings, reduce and eliminate stores of 
highly enriched uranium (HEU) and vulnerable radiological 
materials across the globe, and work to ensure the 
sustainability of nuclear security upgrades in Russia and 
elsewhere.
    Many of our efforts focus on nuclear materials and facility 
security. We recognize that the best way to reduce the threat 
that a proliferator or terrorist could acquire nuclear weapons 
is by denying them access to the necessary nuclear and 
radiological materials in the first place. To that end, our 
fiscal year 2009 request will allow us to accelerate our work, 
including installation of radiation detection systems at nine 
additional ports under our megaports program, for a total of 32 
megaport sites worldwide, helping to secure 49 border crossings 
and other high-risk points of entry under our second line of 
defense program, and expanding export control and commodity 
identification training activities with more than 50 countries.
    Additionally, in 2009, we will undertake a new initiative 
to strengthen international safeguards to prevent the diversion 
of nuclear material to nonpeaceful uses. This next generation 
safeguards initiative will develop the safeguard technologies 
and human resources needed to sustain our nonproliferation 
efforts, while promoting international partnerships and meeting 
the challenges of growing nuclear energy demand. Just as our 
nuclear energy industry had lain dormant for several decades, 
the technology related to safeguarding nuclear energy has also 
lain dormant, and we believe that with the resurgence of 
interest in nuclear energy around the globe, it is now time to 
also increase our efforts with respect to safeguards 
technology.
    Underpinning all of these efforts is our nonproliferation 
research and development (R&D) work, through which we will 
continue our leadership as the principal Federal sponsor of 
long-term proliferation-related R&D on nuclear detection and 
characterization.
    Our 2009 request will allow us to accelerate our efforts 
under the GTRI to convert HEU-fueled research reactors around 
the globe and to use less proliferation-sensitive low-enriched 
uranium (LEU). We will also continue to repatriate U.S. and 
Russian origin HEU to secure storage sites, secure high 
priority nuclear and radiological sites globally, and secure 
and remove orphan radiological sources that could be used in 
dirty bombs. To date, we have removed enough nuclear material 
for nearly 70 nuclear weapons and secured more than enough 
radiological sources for over 8,000 dirty bombs. In fiscal year 
2009, we will convert an additional eight HEU reactors to LEU, 
remove an additional 700 kilograms of HEU, and secure an 
additional 125 radiological sites across the globe.
    Last year, I updated you on our progress under the 
Bratislava Joint Statement on Nuclear Security by Presidents 
Bush and Putin in which we partnered with Russia to secure its 
nuclear weapons and sites of highest concern. I am pleased to 
report that we have completed 85 percent of these key upgrades. 
Work is underway at the remaining sites, and we are on track to 
complete that work by the end of this year.
    In fiscal year 2009, should Congress grant our request for 
resources, our focus will be on completing additional high 
priority security work beyond the Bratislava agreement and 
working with Russia to put in place systems and procedures to 
sustain the security upgrades that we already have in place.
    Additionally, our fiscal year 2009 budget request includes 
funding to ensure the shutdown of the last remaining Russian 
plutonium production reactor in 2010, which will prevent the 
production of about a half ton of weapons-grade plutonium 
annually.
    We will continue our efforts to disposition excess U.S. HEU 
and facilitate Russia's commitment to dispose of 34 tons of 
weapons-origin material.
    These material security efforts enhance our work to 
strengthen the nonproliferation regime and the multilateral 
partnerships supporting it. In this regard, we will continue to 
support the work plan of the global initiative to combat 
nuclear terrorism and to advance the objectives of United 
Nations Security Council Resolution 1540, which mandates 
effective export controls, criminalizes proliferation of WMD by 
non-state actors, and requires states to secure proliferation-
sensitive materials.
    We will, likewise, continue our technical and diplomatic 
support of U.S. efforts on the Nonproliferation Treaty within 
the Nuclear Suppliers Group and on multilateral initiatives 
such as the international fuel assurances and disablement of 
North Korea's nuclear facilities through the use of Department 
of State (DOS) funds.
    We recognize that just as today's proliferation and 
terrorism threats are global in scope, so too must be the 
responses that we undertake to address them. As I stated 
earlier, these are dynamic programs designed to address today's 
evolving proliferation and nuclear terrorism threats. We have 
made a lot of progress in tackling a threat many people thought 
we could not effectively address. We will continue to undertake 
our global mission as smartly and as efficiently as possible.
    To that end, in fiscal year 2009, we will continue our 
efforts to accelerate our programs where we can and create 
synergies among our efforts, emphasizing cost-sharing and 
sustainability with our international partners and strengthen 
our commitment to program and project management.
    If I could just have a couple of more minutes to address 
the questions that you alluded to, Mr. Chairman, in your 
opening statement. With respect to additional monies that were 
provided by Congress in the current fiscal year appropriation 
and the changing nature of Russia, I think it was here a year 
ago that when asked about the possibility that more funds might 
be forthcoming, I stated that if they were and if the President 
had signed such legislation, we would spend them 
enthusiastically. I can report that we are doing so.
    Our priorities in that regard I think also have remained 
largely unchanged from last year in which, as we complete our 
material security work in Russia, we are moving in two 
directions. We are moving both to emphasize the second line of 
defense, which was, I think, correctly lower priority in the 
initial circumstances in the 1990s. Then we are also moving 
from the nuclear threat to the radiological threat, again 
appropriately a lower priority, but still a significant threat. 
Those are the ways in which we would emphasize the spending of 
additional monies, and frankly, I think that is reflected in 
what Congress did.
    With respect to Russia, as I know you are aware, the plan 
is for us to complete our work by 2012. We are actually in a 
somewhat interesting period because I think for the first time, 
it is necessary for us to coordinate our expenditures with 
Russia. In the past, frankly, we were providers. They were 
recipients. What we did added to the security there, but it did 
not much affect what Russia was doing. We have told them, and 
they have agreed, that the funding for security upgrades will 
end in 2012, and further, we have made the point to them that 
we want to see that the investment that we have made, the 
substantial investment that we have made, in Russian nuclear 
security be sustained and that will require the expenditure of 
Russian funds. As we ramp down our spending, they will need to 
ramp theirs up. For the first time, they have told us about 
what their spending plans were and we intend to try and talk to 
them about how we expect to spend our funds over the next 
several years and to coordinate those efforts to make sure that 
we sustain the investments that we have made.
    I would say as a second point and recognizing the very 
valid point that you made about the changing nature of the 
Russian economy, we are tending to expect more cost sharing. So 
the agreement that we reached with Russia at the end of 2006 on 
completion of Russian border crossing work by 2011, 6 years 
ahead of schedule, calls for roughly 50/50 cost sharing with 
Russia. Of course, that was now a little more than a year ago. 
Economic conditions have improved further, and I think we would 
tend to try and take into account those changes in economic 
conditions as we work with the Russians.
    Still, I think it is important that we fulfill the 
agreements that we have made, and we intend to do so. We think 
that the support that Congress has given us will allow us to do 
so.
    Thank you for your attention.
    [The prepared statement of Mr. Tobey follows:]
                 Prepared Statement by William H. Tobey
    Thank you for the opportunity to discuss the President's fiscal 
year 2009 budget request for the National Nuclear Security 
Administration (NNSA). I want to thank all of the Members for their 
strong support for our vital national security missions. In the 8th 
year of this administration, with the support of Congress, NNSA has 
achieved a level of stability that is required for accomplishing our 
long-term missions. Our fundamental national security responsibilities 
for the United States include:

        <bullet> assuring the safety, security, and reliability of the 
        U.S. nuclear weapons stockpile while at the same time 
        considering options for transforming the stockpile and the 
        complex infrastructure that supports it;
        <bullet> reducing the threat posed by proliferation of nuclear 
        weapons, material, and expertise; and
        <bullet> providing reliable and safe nuclear reactor propulsion 
        systems for the U.S. Navy.

    NNSA is examining how to proceed into the future to address 
evolving national security needs in a manner that anticipates 
significant changes in how we manage our national security programs, 
our assets and our people. To that end, the fiscal year 2009 budget 
request for $9.1 billion, a decrease of $35 million from the fiscal 
year 2008 Consolidated Appropriations Act, supports NNSA's crucial 
national security mission. My testimony today will focus on NNSA's 
Defense Nuclear Nonproliferation budget request for fiscal year 2009.
                    defense nuclear nonproliferation
    The possibility that rogue states or terrorists might acquire 
nuclear and other weapons of mass destruction (WMD) and their related 
technologies, equipment and expertise, poses one of the most serious 
threats to the United States and international security. The continued 
pursuit of nuclear weapons by terrorists and states of concern 
underscores the urgency of NNSA's efforts to secure vulnerable nuclear 
weapons and weapons-usable nuclear material, to detect and interdict 
nuclear and radiological materials and WMD-related equipment, to halt 
the production of fissile material for weapons, to dispose of surplus 
weapons-usable material, and to contain the proliferation of WMD 
technical expertise. The fiscal year 2009 Budget Request will enable 
NNSA to continue these critical activities that support threat 
reduction initiatives vital to U.S. national security.
    Preventing access to nuclear weapons and fissile material has many 
dimensions. Our highest priority is to keep these dangerous materials 
out of the hands of the world's most dangerous actors. Absent access to 
a sufficient quantity of essential fissile materials, there can be no 
nuclear weapon. The most direct way to prevent acquisition of nuclear 
weapons is by denying access to fissile material. Historically, much of 
our materials security emphasis focused on Russia because that is where 
most of the poorly secured material was located. We have made 
remarkable progress cooperating with Russia to strengthen protection, 
control, and accounting of its nuclear weapons and materials. We 
recently completed security upgrades at 25 Russian Strategic Rocket 
Force sites and will meet our commitment to conclude agreed-to security 
upgrade activities at Russian nuclear sites by the end of this year, as 
provided for under the Bratislava Joint Statement signed by Presidents 
Bush and Putin. Although these direct upgrade efforts are largely 
drawing to a close after over a decade of work, we will continue 
security upgrade work at some sites added to our work scope after the 
Bratislava summit, and will continue to work cooperatively with Russia 
to ensure the long-term sustainability of the systems and procedures 
already implemented. We recently reached agreement with Russia on a 
sustainability plan that identifies the requirements for long-term 
Russian maintenance and infrastructure of security upgrades under our 
cooperative program.
    However, not all nuclear material of proliferation concern is 
located in Russia. We are also working with other partners to secure 
weapons-usable nuclear materials in other parts of the world, and to 
strengthen security at civil nuclear and radiological facilities. One 
area of particular concern is research reactors, which often use 
highly-enriched uranium (HEU) fuel otherwise suitable for bombs. Our 
Global Threat Reduction Initiative (GTRI) converts research reactors 
around the world from HEU to low-enriched uranium (LEU) fuel. The GTRI 
program, and its antecedents, have removed approximately 68 nuclear 
bombs' worth of HEU and secured more than 600 radiological sites around 
the world, collectively containing over 9 million curies, enough 
radiation for approximately 8,500 dirty bombs. In the United States the 
GTRI program has removed over 16,000 at-risk radiological sources, 
totaling more than 175,000 curies--enough for more than 370 dirty 
bombs.
    An additional nuclear security challenge concerns the effectiveness 
and credibility of international nuclear safeguards. Against the 
backdrop of growing nuclear energy demand, concerns over the diffusion 
of sensitive nuclear technologies, and the challenges posed by Iran and 
North Korea, international safeguards are coming under increasing 
strain. To address this challenge, NNSA has launched the Next 
Generation Safeguards Initiative (NGSI), which will ensure U.S. 
leadership and investment in our technologies and experts in the 
service of nuclear nonproliferation. Enhanced and revitalized 
international safeguards will also help ensure the sustainability of 
the gains made by our associated threat reduction efforts.
    Additionally, in fiscal year 2009, we will continue to lead the 
U.S. Government efforts to oversee the disablement and dismantlement of 
North Korea's nuclear program. However, in order to continue our 
support for these critical disablement and dismantlement activities, we 
will require a waiver of the Glenn Amendment restrictions that were 
triggered by North Korea's 2006 nuclear test, as well as more 
substantial funding. The Glenn Amendment prohibits the Department of 
Energy (DOE), which would otherwise fund denuclearization activities, 
from providing any financial assistance to North Korea. Without this 
waiver, the Department will be unable to complete Phase Three 
denuclearization activities. NNSA and the administration have been 
working to insert language into the fiscal year 2008 Iraq War 
Supplemental, or any other appropriate legislative vehicle, to provide 
such a waiver.
    We are also taking aggressive steps to interdict illicit transfers 
of weapons-usable nuclear materials and equipment, and to prevent 
dissemination of related sensitive nuclear technology via strengthened 
export controls and cooperation. We currently provide export control 
and commodity identification training to over 50 countries across the 
globe, in order to improve nations' capabilities to deter and interdict 
illicit WMD-related technology transfers. As an important complement to 
physical security improvements, the Second Line of Defense (SLD) 
Program enhances our foreign partners' ability to interdict illicit 
trafficking in nuclear materials through the deployment of radiation 
detection systems at high-risk land-border crossings, airports and 
seaports. These efforts increase the likelihood of interdicting illicit 
nuclear materials entering or leaving the country. To date, 117 Russian 
border crossings have been equipped with radiation detection equipment 
under this program.
    As part of the SLD, the Megaports Initiative, established in 2003, 
responds to concerns that terrorists could use the global maritime 
shipping network to smuggle fissile materials or warheads. By 
installing radiation detection systems at major seaports throughout the 
world, this initiative strengthens the detection and interdiction 
capabilities of our partner countries. At the end of 2007, the 
Megaports program was operational in 12 countries and being implemented 
at 17 additional ports. In addition, we continue to carry out 
nonproliferation research and development (R&D) activities, developing, 
demonstrating and delivering novel nuclear material and nuclear 
detonation detection technologies for nonproliferation and homeland 
security applications.
    Since the end of the Cold War, the Nation's adversaries have been 
quick to adapt to technological improvements. Staying ahead of the R&D 
curve is critically important to keeping our Nation safe and secure. As 
the principal Federal sponsor of long-term nuclear nonproliferation-
related R&D, NNSA focuses its R&D investments on leading-edge, early 
stage basic and applied R&D programs, including testing and evaluation, 
which lead to prototype development and improvements in nuclear 
detection and characterization systems. By concentrating on these key 
R&D components, NNSA helps strengthen the U.S. response to current and 
projected WMD threats.
    These critical steps are only part of a comprehensive 
nonproliferation program. In addition to these efforts to secure, 
detect, and interdict weapons-usable materials, we also work to 
eliminate weapons-usable material. Indeed, there remains enough fissile 
material in the world today for tens of thousands of weapons. An 
integral part of our strategy, therefore, has been to encourage other 
states to stop producing materials for nuclear weapons, as the United 
States itself did many years ago. For example, Russia still produces 
weapons-grade plutonium, not because it needs it for weapons, but 
because the reactors that produce it also supply heat and electricity 
to local communities. We are helping to replace these non-commercial 
style reactors with fossil fuel plants, thereby eliminating their 
production of plutonium. This year two of the remaining three 
plutonium-producing reactors in Russia will shut down permanently at 
Seversk, 6 months ahead of schedule, and the third at Zheleznogorsk 
will shut down in December 2010, if not, as we hope, sooner.
    As previously indicated, there are a number of effective synergies 
between NNSA's defense activities and our nuclear nonproliferation 
objectives. For example, we are disposing of the substantial quantities 
of surplus weapons grade HEU that has resulted from the thousands of 
warheads we have dismantled, by downblending it to lower enrichment 
levels suitable for use in commercial reactors. This past February 
marked the 15th anniversary of the U.S.-Russia HEU Purchase Agreement--
one of the most successful nonproliferation programs ever conceived. 
Under the HEU Purchase Agreement, over 322 metric tons of uranium from 
Russia's dismantled nuclear weapons--enough material for more than 
12,000 nuclear weapons--has been downblended for use in commercial 
power reactors in the United States. Nuclear power generates twenty 
percent of all American electricity, and half of that is generated by 
fuel derived from Russian HEU. As a result, one-tenth of U.S. 
electricity is made possible by material removed from former Soviet 
nuclear weapons.
    Similarly, disposition of surplus U.S. HEU through downblending to 
LEU has been proceeding for nearly a decade and progress is continuing. 
As of the end of December 2007, approximately 92 metric tons of HEU, 
equivalent to over 2,000 nuclear weapons, have been downblended and 
converted to power or research reactor fuel, and an additional 13 
metric tons have been delivered to disposition facilities for near-term 
downblending. This HEU disposition progress has already contributed 
substantially to nuclear material consolidation efforts in the DOE 
complex, eliminating the necessity for high security storage at two 
sites, and greatly reducing it at several others.
    In addition to the efforts on HEU, the United States and Russia 
have each committed to dispose of 34 metric tons of surplus weapon-
grade plutonium. In November 2007, we signed a joint statement with 
Russia that represents a technically and financially credible plan to 
dispose of 34 metric tons of Russia's surplus plutonium in fast 
reactors. Under this approach, Russia will pay for the majority of 
costs and begin disposing of its surplus plutonium in the 2012 
timeframe. Last year, the DOE began construction of a Mixed Oxide (MOX) 
Fuel Fabrication Facility at the Savannah River Site. The facility 
originally planned to dispose of 34 metric tons of surplus weapon-grade 
plutonium by converting it into MOX fuel to be irradiated in commercial 
nuclear reactors, producing electricity and rendering the plutonium 
undesirable for weapons use. Last September, at the International 
Atomic Energy Agency (IAEA) General Conference in Vienna, Secretary 
Bodman announced that an additional 9 metric tons of plutonium, enough 
to make 2000 nuclear weapons, would be removed from such use and 
eliminated by conversion to MOX fuel. The MOX facility is a critical 
component of the Department's surplus plutonium consolidation efforts 
and is essential to the goal of transforming the complex.
    Our efforts at home are not enough, in and of themselves. We need 
cooperation from our international partners as well, and if we are to 
encourage responsible international actions, the United States must set 
the example. We have dramatically improved physical security of U.S. 
nuclear weapons and weapons-usable materials in the years since the 
September 11 attacks. We have made substantial reductions in our 
stockpile and made additional plutonium available for conversion into 
civilian reactor fuel. Additionally our complex transformation will 
further reduce the number of sites and locations where we store special 
nuclear materials, providing for improved security of these materials.
    The risk of nuclear terrorism is not limited to the United States. 
The success of our efforts to deny access to nuclear weapons and 
material is very much dependent on whether our foreign partners 
similarly recognize the threat and help us to combat it. To this end, 
we undertake efforts to strengthen the nonproliferation regime and 
expand international nonproliferation efforts. We continue to provide 
technical and policy support to U.S. efforts within the 
nonproliferation regime, including support to the Nuclear 
Nonproliferation Treaty, the Nuclear Suppliers Group, the IAEA, and a 
wide range of U.S. diplomatic initiatives, including the efforts in 
North Korea. We also have strengthened international collaboration and 
dialogue on nonproliferation efforts, including developing an 
international mechanism through which seven countries have pledged some 
$45 million in contributions to our nonproliferation programs.
    In July 2006, Presidents Bush and Putin announced the Global 
Initiative to Combat Nuclear Terrorism to strengthen cooperation 
worldwide on nuclear materials security and to prevent terrorist acts 
involving nuclear or radioactive substances. By the end of 2007, 64 
nations had joined this Global Initiative, and a number of subject 
matter expert conferences and training activities have been conducted. 
Most recently in December 2007, representatives from 15 nations 
participated in Global Initiative to Combat Nuclear Terrorism Radiation 
Emergency Response workshop held in China by the NNSA. Paired with UN 
Security Council Resolution 1540 and working closely with our overseas 
partners, we now have both the legal mandate and the practical means 
necessary for concrete actions to secure nuclear material against the 
threat of diversion.
          fiscal year 2009 budget request programmatic detail
    The President's fiscal year 2009 budget request for NNSA totals 
$9.1 billion, a decrease of $35.0 million or 0.4 percent less than the 
fiscal year 2008 consolidated appropriations level. We are managing our 
program activities within a disciplined 5-year budget and planning 
envelope, and are successfully balancing the administration's high 
priority initiatives to reduce global nuclear danger as well as future 
planning for the Nation's nuclear weapons complex within an overall 
modest growth rate.
    The NNSA budget justification contains information for 5 years as 
required by section 3253 of P.L. 106-065, the National Defense 
Authorization Act for Fiscal Year 2000. This section, entitled Future-
Years Nuclear Security Program, requires the Administrator to submit to 
Congress each year the estimated expenditures necessary to support the 
programs, projects and activities of the NNSA for a 5-year fiscal 
period, in a level of detail comparable to that contained in the 
budget.
    The fiscal year 2009-2013 Future Years Nuclear Security Program 
(FYNSP) projects $47.7 billion for NNSA programs though 2013. This is a 
decrease of about $2.3 billion over last year's projections. The fiscal 
year 2009 request is slightly smaller than last year's projection; 
however, the outyears increase starting in fiscal year 2010.
Defense Nuclear Nonproliferation Budget Summary
    The Defense Nuclear Nonproliferation Program mission is to detect, 
prevent, and reverse the proliferation of WMD. Our nonproliferation 
programs address the threat that hostile nations or terrorist groups 
may acquire weapons-usable material, equipment or technology, or WMD 
capabilities. The administration's fiscal year 2009 request totals 
$1.247 billion for this program, reflecting a return to measured growth 
from the fiscal year 2007 appropriation level, but a decrease from the 
final fiscal year 2008 appropriation, which included a large 
congressional plus-up over the President's request. The decrease also 
reflects congressional action to transfer funding for some construction 
projects to other budget accounts, and the anticipated decrease of 
other major construction activities under the Elimination of Weapons 
Grade Plutonium Production Program in 2008, following completion of 
major elements of that program's work scope.
                   global threat reduction initiative
    The fiscal year 2009 request of $220 million for the GTRI is an 
increase of $27 million over the fiscal year 2008 operating plan. This 
funding will support GTRI's mission to reduce and protect vulnerable 
nuclear and radiological materials at civilian sites worldwide by 
converting reactors from HEU to LEU, removing excess nuclear/
radiological materials, and protecting high priority nuclear/
radiological material from theft and sabotage. Specific increases in 
the GTRI budget reflect an acceleration of (1) Bratislava efforts to 
repatriate Russian-origin HEU and convert HEU reactors to LEU; (2) 
efforts to develop a new ultra-high density LEU fuel needed to convert 
28 high performance reactors around the world; (3) the removal of 
nuclear materials not covered under other existing programs; and (4) 
security upgrades on high priority HEU and radioactive materials 
located in the United States.
           international material protection and cooperation
    NNSA's International Material Protection and Cooperation fiscal 
year 2009 budget request of $429.7 million represents a decrease of 
$194.8 million from the fiscal year 2008 appropriated level. This large 
decrease reflects: (1) the anticipated completion of major elements of 
nuclear security upgrade work performed under the Bratislava Agreement; 
(2) completion of the majority of nuclear security upgrades in 
countries outside of Russia; and (3) large Congressional increases for 
this work over the President's fiscal year 2008 budget request. During 
the past 15 years, the Material Protection Control and Accounting 
(MPC&A) program has secured 85 percent of Russian nuclear weapons sites 
of concern, and work is underway to complete this work by the end of 
fiscal year 2008. To maintain this progress, MPC&A and Rosatom have 
developed a new joint plan identifying elements required for Rosatom's 
long-term sustainability of U.S.-installed security enhancements. In 
fiscal year 2009, international material protection activities will 
focus on the continued enhancement of Russia's capability to operate 
and maintain U.S.-funded security improvements in the long-term. The 
MPC&A Program is also focused on reducing proliferation risks by 
converting Russian HEU to LEU and by consolidating weapons-usable 
nuclear material into fewer, more secure locations. In fiscal year 
2009, we will eliminate an additional 1.4 metric tons of Russian HEU 
for a cumulative total of 12.4 metric tons.
    Our SLD Program installs radiation detection equipment at key 
transit and border crossings, airports and major seaports to deter, 
detect and interdict illicit trafficking in nuclear and radioactive 
materials. The SLD Core Program, which installs radiation detection 
equipment at borders, airports, and strategic feeder ports, has 
equipped 117 sites in Russia. The U.S. and Russia have agreed to 
jointly fund work to equip all of Russia's border crossings with 
radiation detection equipment by the end of 2011, 6 years ahead of 
schedule. The Core Program has also equipped 33 sites outside of Russia 
with radiation detection systems. The SLD Megaports Initiative has 
deployed radiation detection and cargo scanning equipment at 12 ports 
to date in the Netherlands, Greece, Bahamas, Sri Lanka, Singapore, 
Spain, the Philippines, Belgium, Honduras, Pakistan, the United 
Kingdom, and Israel. Various stages of implementation are underway at 
ports in 16 other locations.
    During fiscal year 2009, the SLD Core Program is planning to 
complete an additional 49 sites. The SLD Megaports Initiative plans to 
complete work at nine key ports in fiscal year 2009 in Israel, Jordan, 
Spain, Mexico, China, the United Arab Emirates, Saudi Arabia, Oman, and 
Taiwan. We will continue progress on separate ports in Spain and 
Mexico, and will initiate new work in fiscal year 2009 at ports in 
Argentina, Brazil, and Malaysia. The Megaports program is also pursuing 
outreach activities in northeastern Africa and other key regions of 
concern. Fiscal year 2009 funding will also support the procurement of 
Advanced Spectroscopic Portals and mobile detection systems, including 
Mobile Radiation Detection and Identification Systems and Radiation 
Detection Straddle Carriers. The Megaports Initiative also works 
closely with the U.S. Department of Homeland Security's Bureau of U.S. 
Customs and Border Protection (CBP) by making technical resources 
available to complement the Container Security Initiative (CSI) and the 
Secure Freight Initiative (SFI) at international ports. Under SFI, all 
U.S.-bound containers are being scanned at three ports in Pakistan, 
Honduras, and the United Kingdom, fulfilling the 2006 SAFE Ports Act to 
couple non-intrusive imaging equipment and radiation detection 
equipment in order to demonstrate the effectiveness of 100 percent 
scanning of U.S.-bound containers. SLD Megaports has also partnered 
with CBP at four, limited capacity SFI locations in Hong Kong, Oman, 
Korea, and Singapore. The Megaports Initiative is installing radiation 
detection equipment at all CSI ports and has worked with CBP to pursue, 
where feasible, joint agreements with host nations to implement both 
the Megaports and SFI programs.
              nonproliferation and international security
    The Nonproliferation and International Security (NIS) mission is to 
prevent, mitigate, and reverse WMD proliferation by providing policy 
and technical support to strengthen international nonproliferation 
regimes, institutions, and arrangements; promote foreign compliance 
with nonproliferation norms and commitments; and eliminate or reduce 
proliferation programs and stockpiles. Major NIS strategic priorities 
in fiscal year 2009 include supporting the safe and secure expansion of 
nuclear energy use and disablement, dismantlement, and verification of 
nuclear programs in North Korea. NIS will also support the NGSI to 
strengthen international safeguards, revitalize the U.S. technical and 
human resource base that supports them, and develop the tools, 
approaches, and authorities needed by the IAEA to fulfill its mandate 
far into the future.
    In fiscal year 2009, NIS also will confirm the permanent 
elimination from the Russian weapons stockpile of 30 metric tons of 
HEU; control the export of items and technology useful for WMD 
programs; continue an augmented export control cooperation program 
involving emerging suppliers and high-traffic transit states; break up 
proliferation networks and improve multilateral export control 
guidelines; develop and implement policy in support of global 
nonproliferation regimes; train 2,500 international and domestic 
experts in nonproliferation; provide technical expertise to the U.S. 
Government to support various WMD interdiction activities; develop and 
implement transparency measures to ensure that nuclear materials are 
secure; transition 300 Russian and former Soviet Union WMD experts to 
long-term private sector jobs; and make the preparations necessary for 
the U.S. Government's $50 million contribution to the IAEA for the 
establishment of the International Nuclear Fuel Bank--an international 
effort to establish a back-up nuclear fuel supply for peaceful uses.
           elimination of weapons grade plutonium production
    Turning to programs that focus on halting the production of nuclear 
materials, the Elimination of Weapons Grade Plutonium Production 
Program is working towards completing the permanent shutdown of the 
three remaining weapons-grade plutonium production reactors in Seversk 
and Zheleznogorsk, Russia. The fiscal year 2009 Budget request of $141 
million reflects a decrease of $38 million from the fiscal year 2008 
level, following the planned completion in December 2008 of the fossil 
fuel plant at Seversk. The budget profile provides the funding required 
to replace the heat and electricity these reactors would otherwise 
supply to local communities with energy generated by fossil fuel, 
permitting the Russians to permanently shut down these reactors by 
December 2008 in Seversk and no later than December 2010 in 
Zheleznogorsk. This construction activity thus leads to the elimination 
of more than one metric ton of weapons-grade plutonium production per 
year.
                     fissile materials disposition
    The Fissile Materials Disposition program request for fiscal year 
2009 is $41.8 million. The program retains three principal elements: 
efforts to dispose of U.S. HEU declared surplus to defense needs 
primarily by down-blending it into LEU; technical analyses and support 
to negotiations involving the United States, Russia, and the IAEA on 
monitoring and inspection procedures under the 2000 U.S.-Russia 
plutonium disposition agreement; and limited support for the early 
disposition of Russia's plutonium in that country's BN-600 fast reactor 
including U.S. technical support for work in Russia for disposition of 
Russian weapon-grade plutonium in fast reactors generally.
    The fiscal year 2008 Consolidated Appropriations Act (P.L. 110-161) 
appropriated funding for the MOX Fuel Fabrication Facility Project in 
South Carolina in the DOE's Office of Nuclear Energy account and 
funding for the related Pit Disassembly and Conversion Facility/Waste 
Solidification Building projects in the NNSA Weapons Activities 
account. These projects remain important components of the Nation's 
nuclear nonproliferation efforts. In total, the funding commitment to 
the DOE's nonproliferation activities is $1.853 billion in 2009. The 
MOX project is a key component of the U.S. strategy for plutonium 
disposition. It is the centerpiece of a comprehensive approach for 
disposing of surplus weapons-usable plutonium by fabricating it into 
mixed-oxide fuel for irradiation in existing nuclear reactors. This 
meets key national security and nonproliferation objectives by 
converting the plutonium into forms not readily usable for weapons and 
supports efforts to consolidate nuclear materials throughout the 
weapons complex.
    In addition to its role in the disposition of excess nuclear 
materials at home, the U.S. views the MOX project as a key component of 
U.S. global nuclear nonproliferation efforts in which fissile material 
disposition is the final step in a balanced nuclear nonproliferation 
strategy aimed at employing measures necessary to detect, secure, and 
dispose of dangerous nuclear material. In 2007, the U.S. and Russian 
governments agreed on a framework for a technically and financially 
credible Russian plutonium disposition program based on the irradiation 
of plutonium as MOX fuel in fast reactors. When all required steps have 
taken for implementation, it will enable the U.S. and Russia to meet 
their commitments under a 2000 agreement to dispose of a combined total 
of 68 metric tons of surplus weapon-grade plutonium--enough material 
for approximately over 4,000 nuclear weapons.
    This budget request also seeks funding to dispose of surplus U.S. 
HEU, including downblending 17.4 metric tons of HEU to establish the 
Reliable Fuel Supply, which would be available to countries with good 
nonproliferation credentials that face a disruption in supply that 
cannot be corrected through normal commercial means. This initiative 
marks an important first step creating a reliable nuclear fuel 
mechanism that could provide countries a strong incentive to refrain 
from acquiring their own enrichment and reprocessing capabilities.
       nonproliferation and verification research and development
    The fiscal year 2009 budget requests $275 million for 
Nonproliferation and Verification R&D. This effort encompasses two 
primary programs that make unique contributions to national security by 
conducting R&D into new technical capabilities to detect illicit 
foreign production, diversion or detonation of nuclear materials. The 
Proliferation Detection Program conducts research across a spectrum of 
technical disciplines that supports the NNSA mission, national and 
homeland security agencies and the counterterrorism community. 
Specifically, this program develops the tools, technologies, 
techniques, and expertise required for the identification, location, 
and analysis of facilities, materials, and processes of undeclared and 
proliferant nuclear programs. The Nuclear Detonation Detection Program 
produces the Nation's space-based operational sensors that monitor the 
entire planet to detect and report surface, atmospheric, or space 
nuclear detonations. This program also produces and updates regional 
geophysical datasets that enable and enhance operation of the Nation's 
seismic nuclear detonation detection network.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Reed. Thank you very much, Mr. Tobey. Thank you for 
your excellent statement.
    Mr. Benkert, please.

  STATEMENT OF JOSEPH A. BENKERT, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY OF DEFENSE FOR GLOBAL SECURITY AFFAIRS, DEPARTMENT OF 
                            DEFENSE

    Mr. Benkert. Thank you, Mr. Chairman. Mr. Chairman, Senator 
Dole, it is an honor to appear before you once again to discuss 
the CTR Program and the PSI. As did Mr. Tobey, I would like to 
express my appreciation and the Department's appreciation for 
the strong support that this committee has provided for the CTR 
Program over the years, and I am, I think, pleased to be able 
to report that we are making good use of the funds and the 
authorities that you have provided us, and I will touch on some 
of them further in this statement.
    Senator Dole, in your remarks, you mentioned the vital 
importance of programs that keep WMD out of the hands of 
terrorists. So permit me first to begin with a few words about 
the strategic framework which guides our many and varied 
efforts to combat WMD and to keep such weapons out of the hands 
of terrorists and where CTR fits in that.
    We have, during this administration, created a number of 
documents that provide, I think, evidence of the priority that 
this country places on combating WMD and WMD terrorism, 
including a national strategy to combat WMD, a national 
military strategy to combat WMD, and a strategy to combat WMD 
terrorism. Underlying all these strategies are four themes or 
pillars.
    First is the need for good and continuously improving 
intelligence on these threats.
    The second is the importance of securing or eliminating WMD 
at its source, which is one of the principal purposes of the 
CTR program.
    Third is interdicting WMD and related materials on the 
move, in transit.
    The fourth is developing consequence management resources 
should a WMD event occur.
    Clearly, CTR and PSI, which I will talk about later, 
contribute very directly to two of these four underlying themes 
or pillars under all of our strategies.
    Our strategies for combating WMD also note the importance 
of international partnerships. I think it is noteworthy that 
our department's Quadrennial Defense Review, in particular, was 
noteworthy in its emphasis on the essential nature of 
strengthening international partnerships and building the 
capacity of friends, allies, and partners. I think it is not an 
overstatement to say that our first line of defense in 
combating WMD is international cooperation, and clearly CTR and 
PSI are prime examples of our Government's efforts to address 
this important issue.
    For 2009, the President has requested $414 million to 
continue CTR activities and $800,000 for PSI exercise support. 
We ask for your support in these pending budget requests for 
CTR and PSI, and I would note that the budget request for CTR 
at $414 million is substantially above what we requested last 
year, reflecting an attempt to come close to the additional 
funds that you have provided us.
    I would like to just bring the committee up to date on the 
status of CTR projects, what we have done in the last year, and 
new initiatives that will be started this year.
    As you have noted, the authorizing legislation added an 
additional $80 million to the President's budget request for 
CTR. I would also note that the legislation removed the 
requirement for us to certify that countries receiving CTR 
assistance met certain conditions before authorized funds could 
be obligated. The certification process took time and every 
year it caused obligations to be delayed. So we greatly 
appreciate its repeal.
    You also removed the geographic limitation that confined 
the program largely to the states of the former Soviet Union, 
for the first time, authorizing specific funding to expand 
beyond those borders, and that was a noteworthy development, 
and we are now working to develop the program to implement 
that.
    Mr. Chairman, you noted the changing nature of the Russian 
economy in our programs in Russia. I would note that we 
continue to have a significant CTR program in Russia, and I 
think it is important that we do so. With its oil wealth, 
Russia is certainly not the economically hobbled nation whose 
WMD legacy CTR was originally intended to address.
    It is important, I think, to remember why CTR in Russia 
remains in our interest, despite the changing economy in 
Russia. I think, for example, it remains in the U.S. interest 
to ensure the elimination of strategic delivery systems at 
their source, even in the face of Russian modernization of its 
strategic systems. Clearly Russia is going to modernize its 
strategic systems and would do so whether or not CTR existed. 
The issue is, I think, whether we would have confidence that 
Russia would dispose of its old systems in a responsible and 
nonproliferable way. CTR is one of the methods by which we can 
have such confidence.
    I would also note that above the level of what is 
accomplished in specific programs, the CTR program has been 
characterized by a very professional and business-like 
relationship with our Russian counterparts despite the ups and 
downs in the overall relationship with Russia over the last few 
years. I think it is important that we continue to have such a 
foundation in the relationship with Russia and continue that.
    Let me just mention some highlights of what the CTR program 
in Russia has done over the course of the past year.
    First, in coordination with our colleagues at DOE and in 
accordance with the 2005 decision by Presidents Bush and Putin 
at Bratislava to accelerate implementation of the warhead 
security program, last year DOD provided upgrades for security 
systems at 4 Russian nuclear weapons sites, bringing to 16 the 
total number of upgraded sites. Work is now in progress at the 
remaining eight sites where DOD has commitments, and we expect 
to complete the installation of these security upgrades by the 
end of 2008, which was the goal of the program.
    The warhead security initiative also includes close 
coordination with our Russian counterparts to structure a 
system that gives the Russian military the means to sustain the 
operational readiness of these security systems into the 
future. A key component of this warhead security program is 
obviously to sustain what we have put in place, and that is 
largely a Russian responsibility.
    Second, I would just note that a week from today on April 
9th, a ceremony will take place in Perm, Russia, celebrating 
CTR's final action in the elimination of the SS-24 rail 
mobilized intercontinental ballistic missile (ICBM) system, a 
system that originally was capable of delivering some 460 
warheads. I think this is a significant milestone in the 
program.
    While work on the SS-24 is complete, we continue to work on 
eliminating other intercontinental and submarine launch 
ballistic missiles, their launchers and associated submarines. 
Last year, the Department eliminated 20 submarine launch tubes, 
20 sea-launched ballistic missiles, 76 ICBMs, and 31 mobile 
launch platforms.
    Third, I think as you know, one of our great challenges in 
CTR in Russia was finding an effective and efficient way to 
complete the construction of the chemical weapons destruction 
facility at Shchuch'ye on time and within budget. I think as 
you know, the Shchuch'ye project will safely destroy over 2 
million artillery shells and rockets filled with nerve gas, the 
most deadly of chemical weapons. In the past, escalating costs 
and, frankly, the uncertain political commitment of our 
interlocutors in Russia to this project posed major challenges 
in completing the project. I am happy to report that I think 
these challenges are now largely resolved in large part due to 
the work of the Defense Threat Reduction Agency's CTR 
implementation team which spent a number of weeks in Moscow 
about a year ago negotiating new arrangements for project 
completions of the chemical weapons destruction facility.
    I would note that for the first time we have a written 
Russian commitment as part of these arrangements to complete 
the project at Russian expense should be DOD contribution prove 
insufficient. We expect that the Shchuch'ye facility will 
become operational by the end of this year.
    I think it is also noteworthy that in 2008 for the first 
time, the level of CTR activities outside of Russia will exceed 
the level of CTR activities inside Russia, and that trend will 
continue in the coming years. In fact, in 2009, the total will 
be about $100 million more outside Russia than inside Russia.
    While a continued CTR relationship with Russia is clearly 
in the U.S. interest, as I have said, CTR's future going 
forward, I think, lies largely outside the Russian Federation. 
Let me then note some of the highlights of CTR work outside 
Russia.
    The biological threat reduction program, one of the 
hallmark programs outside Russia, continued its work in five 
countries: Kazakhstan, Uzbekistan, Azerbaijan, Georgia, and 
Ukraine. It is focused on consolidating countries' dangerous 
pathogen collections, providing security for dangerous 
pathogens, providing disease surveillance monitoring, and 
enhancing strategic research partnerships. A milestone is the 
construction of a central reference laboratory in Tbilisi, 
Georgia, which began last year and is on track to be completed 
in February of next year. At the request of the Georgian 
Government, we are working on making this central reference 
laboratory a joint U.S.-Georgian overseas laboratory. I would 
just note that cooperation with Georgia in the CTR Program has 
been excellent.
    We have also completed a WMD proliferation prevention 
initiative project in Uzbekistan to install radiation portal 
monitors, a project we implemented in cooperation with and for 
the DOE's second line of defense program.
    Proliferation prevention projects in Ukraine are on track 
to install surveillance command and control systems to 
complement DOE's radiation portal monitor installations, as 
well as working with Ukrainian border forces to enhance the 
maritime detection of WMD interdiction capabilities in the 
Black Sea. I would note that this is an example of, I think, 
the strong partnership between our departments in this goal 
where DOE has put in land border and port monitoring portal 
monitors to monitor for WMD, for nuclear materials. We are 
working then, in a complementary fashion, on the maritime 
detection and interdiction capabilities for Ukraine which, of 
course, has a substantial maritime border.
    I would also note that in July 2007, CTR completed its 
first project outside the former Soviet Union, and this was in 
Albania with the elimination of Albania's chemical weapons 
stockpile. With CTR support, Albania became the first state 
party of the Chemical Weapons Convention (CWC) to eliminate 
fully its declared chemical weapons stockpile.
    I am happy to report that with the authorities you gave us 
last year, we are ready to move forward with CTR to begin 
addressing proliferation threats more globally. We are looking 
at ways to streamline the legal requirements for CTR 
activities, and we are working to explore less expensive ways 
to accomplish CTR goals.
    We recently briefed your staff on several potential CTR 
projects. One such activity is in the Republic of Armenia, 
which has requested assistance with biosecurity, to which we 
will respond.
    I would also note that our thinking about CTR expansion is 
going to be informed by several studies on the matter, which 
you have directed us to conduct. The National Academy of 
Sciences will conduct two studies mandated by last year's 
legislation, one on CTR expansion outside the former Soviet 
Union and the other specific to expansion of CTR's biological 
threat reduction programs. We look forward to working with the 
National Academy of Sciences on these studies.
    Let me turn briefly now to PSI.
    Through PSI, the United States collaborates with like-
minded countries to build capabilities for interdicting WMD and 
missile-related shipments, their delivery systems, and related 
materials to and from non-state actors and states of 
proliferation concern.
    I think it is useful to think about PSI on three levels.
    First, governments in PSI make a political commitment to 
stop the proliferation of WMD materials. They sign up to a 
declaration of principles and PSI commitments. Today, the 
United States and any other adherent to the PSI principles can 
call on any one of over 85 other states to take action based on 
the commitments that they have signed up to in PSI. This alone, 
I think, is a singular innovation brought about by PSI.
    Second, there is a significant capacity-building component 
of PSI that is spearheaded by countries that participate in an 
operational experts group that meets regularly to explore 
aspects of interdiction from operational, law enforcement, 
legal, and diplomatic arenas. The Operational Experts Group 
develops outreach and capacity-building activities for the 
benefit of all PSI partners, and the list of capacity-building 
efforts is long but includes such things as, from New Zealand, 
the publication of a model national response plan; from the 
United States, from the DOE, a WMD commodities technical 
handbook to help identify those things we care about in 
interdiction; a Web-based platform that will help record 
lessons learned; and then from a number of countries, over 30 
live and table top exercises involving over 70 PSI partner 
states exploring all modes of transportation, ground, air, and 
sea. I would note that we have seen over the 5 years of PSI 
this exercise program evolve from one that was dominated by a 
focus on military interdiction to one that appreciates the true 
complexity of interdiction, integrates legal, law enforcement, 
intelligence, and policy challenges in a way that more 
accurately reflects real-world proliferation situations.
    The third level of PSI is, of course, international 
collaboration on real-world interdictions. Building on the 
commitment in PSI, the United States has been able to work more 
effectively with many of its PSI partners in interdictions. PSI 
effectively sets the conditions that make success in 
interdiction possible. Put another way, PSI allows partner 
countries to improve and practice interdiction-related actions 
so that we are ready to work together on game day.
    Finally, let me just say a couple words about PSI in the 
future. This May, PSI partners will mark the fifth anniversary 
of PSI here in Washington. Senior leaders from all over the 
world will come together to take stock of this initiative and 
how to strengthen it for the future.
    Congress has also shown similar interest in this program, 
asking in last year's legislation that the President include in 
his annual budget submission of a description of PSI-related 
activities, including associated funding that will be carried 
out by each participating U.S. Government agency or department.
    This requirement presents us and other agencies with a 
challenging task since PSI was conceived by the President and 
is executed by the participating countries as a flexible and 
adaptive initiative that intends to leverage existing 
capabilities and activities and authorities rather than 
creating new ones or creating a program of its own. That said, 
we will work diligently to answer your questions.
    Finally, I would just want to reemphasize the point I made 
at the beginning of my statement. CTR and PSI are but two 
pieces of a much larger national strategy to combat WMD. Since 
September 11, 2001, I think we have made significant progress 
in these areas. CTR and PSI are key examples of this progress. 
PSI did not exist in 2001, and CTR was really a different 
program then. But despite the good work we have done with CTR 
and PSI, we have much more to do across the spectrum of WMD 
threats before we can testify with confidence that all of our 
Government's tools to combat WMD are being integrated fully and 
effectively. We look forward to continued close coordination 
and cooperation with you as we address this challenge.
    Mr. Chairman, thank you for your time. That concludes my 
statement.
    [The prepared statement of Mr. Benkert follows:]
                Prepared Statement by Joseph A. Benkert
    Mr. Chairman and members of the subcommittee, I am pleased to 
appear before you to discuss the Cooperative Threat Reduction (CTR) 
Program and the Proliferation Security Initiative (PSI), two elements 
of the broader U.S. strategy to combat weapons of mass destruction 
(WMD).
    I last testified before you on CTR and PSI in April 2007. In the 
intervening 11 months, we have continued to make progress in all the 
traditional CTR activities and have begun to consider how to proceed 
forward into new areas. PSI has also made progress and will mark the 
fifth anniversary of its announcement in May 2008. Since I last 
appeared before you, Congress has also considered how CTR should 
function in the future and saw fit to streamline significantly CTR 
operations. Congressional action during the fiscal year 2008 
legislative cycle will result in more direct obligation of CTR funds, 
as well as revised procedures for expanding CTR activities beyond the 
borders of the former Soviet Union.
    For fiscal year 2009, the President has requested $414 million to 
continue CTR activities and $800,000 for PSI exercise support. The 
Department asks for your support for the President's pending budget 
requests for CTR and PSI.
                             combating wmd
    Let me first begin with a few words about the strategic framework 
which guides our many and varied efforts to combat WMD. We have a host 
of documents that provide evidence of the priority we place on 
combating WMD and WMD terrorism. These documents, including the 
National Strategy to Combat WMD and the National Military Strategy to 
Combat WMD, proceed from four common themes or pillars: 1) the need for 
improved intelligence; 2) the utility and priority of securing WMD at 
the source; 3) interdicting WMD and materials of concern on the move: 
and, 4) developing consequence management resources should a WMD event 
occur.
    Our strategies for combating WMD all note the importance of 
international partnerships. The Department of Defense's (DOD) 
Quadrennial Defense Review in particular was noteworthy in its emphasis 
on the essential nature of strengthening international partnerships and 
building the capacity of friends, allies and partners. But, I think 
many don't appreciate fully how important this type of coalition 
activity is in the fight against WMD. An essential element of our 
defense in combating WMD is international cooperation, and CTR and PSI 
are but two examples of our government's efforts to address this 
important issue.
                      cooperative threat reduction
    Mr. Chairman, the committee is well acquainted with the history and 
activities of the CTR Program. The national security of the United 
States has been enhanced by the Program's efforts over the years to 
facilitate secure transportation, storage, safeguarding and destruction 
of WMD and the means of their delivery and to assist in the prevention 
of weapons proliferation as envisaged in the original legislation.
CTR Today
    I would like to bring the committee up to date on the status of CTR 
projects, the achievements made over the past year, and the new 
initiatives that will be started this year.

        <bullet> In coordination with the Department of Energy (DOE), 
        DOD is in the process of upgrading security systems at nuclear 
        weapons storage sites in the Russian Federation. During this 
        past year, four more sites were completed, bringing to 16 the 
        total number of sites that DOD has upgraded. Work is in 
        progress at the remaining eight sites where DOD has 
        commitments, and we expect to complete installation of those 
        security upgrades by the end of this calendar year. With 
        security upgrades at more than half the storage sites now 
        completed, DOD and DOE are coordinating closely with the 
        Russian Ministry of Defense (MOD), the Russian Navy and the 
        Strategic Rocket Forces to structure a system that gives the 
        Russian military the means to sustain the operational readiness 
        of those security systems far into the future. In addition, DOD 
        is updating the automated inventory control and management 
        system previously provided while simultaneously expanding it to 
        manage the warhead inventory at 13 additional sites.
          Presidents Bush and Putin took the initiative to accelerate 
        this warhead security work at the February 2005 Bratislava 
        Summit. When this work is complete, we will be able to say that 
        we have worked with our Russian partners to help them improve 
        security at every Russian warhead storage site where they have 
        requested U.S. assistance. This will be a significant 
        achievement, both from a technical and a political perspective. 
        However, the security of Russia's nuclear warheads and related 
        materials is first and foremost a Russian responsibility. What 
        we will have done through the Bratislava Initiative is 
        accelerate all of the work Russia asked us to do on its warhead 
        security program. DOD has worked closely with the Russian MOD 
        to ensure that sustainment for these security upgrades is fully 
        integrated into their security program. Russian MOD leaders 
        responsible for warhead security have proven to be 
        professional, motivated, and committed to the mission of 
        nuclear security. The long-term security of these weapons is 
        not just a function of the equipment DOD and DOE have 
        installed, but also the professionalism of our Russian 
        colleagues who bear ultimate responsibility. This means finding 
        ways to continue engaging with Russia on nuclear security and 
        related topics.
        <bullet> CTR has cooperated with the Russian MOD to securely 
        transport nuclear warheads from operational locations to 
        dismantlement facilities or secure storage locations. As part 
        of this program, we began delivery last year of new cargo 
        railcars with special physical security features. One of these 
        new cars is provided for every two Russian railcars taken out 
        of service. We also provided armored transport vehicles to 
        bolster security for warheads being transported between the 
        sites and the rail transfer points.
        <bullet> The greatest challenge over the past year was finding 
        an efficient and effective way to complete construction of the 
        Chemical Weapons Destruction Facility (CWDF) at Shchuch'ye on 
        time and within the budget of $1.039 billion. Progress on 
        construction was halted for a time because the Department was 
        unable to obtain fair bids from Russian subcontractors for key 
        components of the CWDF. A report on the situation is included 
        as an appendix to the CTR Annual Report for 2009, pursuant to 
        congressional requirement. I will touch on some key elements of 
        this situation here.
          First, it is important to recall why we began the Shchuch'ye 
        project. Shchuch'ye is intended to safely destroy some 2.1 
        million artillery shells and rockets filled with nerve agent. A 
        decade ago, this stockpile was poorly guarded and weakly 
        secured at its depot near what would become the CWDF site we 
        have today. We judged this stockpile to be among the most 
        dangerous in the former Soviet inventory because it was 
        composed of nerve agent-filled projectiles--the most deadly of 
        chemical weapons. Moreover, we judged this stockpile to be 
        doubly dangerous because the projectiles were comparatively 
        small--perhaps even manportable. Those factors have not 
        changed, although the depot has received security upgrades and 
        the Russian Federation is generally a more secure place. We 
        committed to construct the CWDF and we are following through on 
        that commitment.
          Second, the escalating cost and uncertain political 
        commitment of interlocutors in Russia have been major 
        challenges in completing this project. When we were repeatedly 
        unable to secure reasonable bids, the viability of the U.S. 
        position was called into question. We stopped that effort and 
        made our serious concerns very plain to the other side. Much 
        credit is due to CTR's implementation team at the Defense 
        Threat Reduction Agency, which spent weeks in Moscow 
        negotiating terms of a set of arrangements for completing the 
        CWDF. These arrangements protect DOD's financial equities by 
        capping our contribution to the project at slightly more than 
        $1 billion; the arrangements also protect our equities in non-
        proliferation by winning--for the first time--a written Russian 
        commitment to complete the CWDF at Russian expense should the 
        DOD contribution prove insufficient. The new arrangements 
        between the Department and Russia's Federal Agency for Industry 
        (FAI) were signed in May 2007. The U.S. maintains oversight of 
        the project through rights to verify the completed work. By 
        December 2007, FAI had awarded contracts for all remaining 
        major construction activity. As of now, FAI fully expects the 
        CWDF to be operational by December 2008. As of today, our 
        report card on the new arrangements for the CWDF at Shchuch'ye 
        is ``so far, so good.''
        <bullet> In ongoing activities in strategic offensive arms 
        elimination in Russia, in the past year, the Department 
        eliminated 20 submarine launch tubes, 20 sea-launched ballistic 
        missiles, 76 intercontinental ballistic missiles, and 31 mobile 
        launch platforms.
        <bullet> Ongoing projects to enhance biosafety and biosecurity 
        at five research facilities in Russia will be completed in 
        2008.
        <bullet> Outside of Russia, CTR has helped improve the 
        capabilities of Azerbaijan's Coast Guard to interdict WMD 
        smuggling in the Caspian Sea. We are also in the final stage of 
        installing a comprehensive surveillance system that will cover 
        the major shipping lanes in the Caspian.
        <bullet> Our WMD-Proliferation Prevention projects in Ukraine 
        are on track. Working with the DOE, we are installing a 
        surveillance and command, control and communications system to 
        complement DOE's radiation portal monitor installations, as 
        well as providing enhanced WMD detection and interdiction 
        capabilities to their maritime Border Guard forces on the Black 
        Sea.
        <bullet> The Biological Threat Reduction Program continues its 
        work in Kazakhstan, Uzbekistan, Azerbaijan, Georgia, and 
        Ukraine to consolidate each country's pathogen collections, 
        provide security for extremely dangerous pathogens, provide a 
        capability for disease surveillance using molecular diagnostics 
        with real-time reporting, and enhance strategic research 
        partnerships. Construction on the Central Reference Laboratory 
        (CRL) in Tbilisi, GA, which began last year, is on track to be 
        completed in February 2009. Currently, at the request of the 
        Georgian government, we are working on making the CRL a joint 
        U.S.-Georgian overseas laboratory.
        <bullet> In December 2007, the Secretary of Defense and the 
        Kazakhstan Ambassador, on behalf of his government, signed an 
        extension of the CTR Umbrella Agreement with Kazakhstan. This 
        agreement is essential for the continuation of CTR activities. 
        The decision to extend the CTR legal framework shows the 
        continued importance Kazakhstan places on the value of 
        international cooperation in the area of nonproliferation. This 
        important political commitment needs to be matched by improved 
        regulatory processes in Kazakhstan if CTR is to be able to 
        provide the best support it can. Specifically, processes for 
        exempting CTR assistance from Kazakh taxation still have not 
        been resolved satisfactorily, although we are aware that our 
        counterparts in Astana are seeking solutions in good faith.
        <bullet> We completed a WMD Proliferation Prevention Initiative 
        project in Uzbekistan to install radiation portal monitors--a 
        project we implemented for the DOE's Second Line of Defense--
        but fell 10 percent short of the targeted 90-95 percent 
        international traffic coverage due to continued access 
        problems. We also abandoned a planned land border project in 
        Uzbekistan because the Uzbek government blocked necessary 
        interaction with its Border Guard.
        <bullet> While working with Uzbekistan on border security has 
        proven problematic, CTR's Biological Threat Reduction Program 
        is proceeding in Uzbekistan, albeit on a scaled-down basis.
          A key test of Uzbekistan's commitment to international non-
        proliferation cooperation will come this year as we work to 
        extend the CTR Umbrella Agreement.
        <bullet> In July 2007, CTR was able to mark a double milestone: 
        completion of its first project outside the states of the 
        former Soviet Union and elimination of Albania's chemical 
        weapons stockpile. With CTR's support, Albania became the first 
        State Party of the Chemical Weapons Convention to eliminate 
        fully its declared chemical weapons stockpile.
The Future of CTR
    Mr. Chairman, it is important that we continue to have a CTR 
program in Russia. With its oil wealth, Russia certainly is not the 
economically hobbled nation whose WMD legacy CTR was originally 
intended to address. However, it is important to correct misperceptions 
and remind ourselves why CTR in Russia is in the U.S. interest.

        <bullet> At the political level, cooperation from Russia has at 
        times been difficult for CTR. However, at the level where the 
        work gets done, the cooperation has been professional and 
        business-like. Significantly, we have enjoyed a relationship of 
        mutual respect with the Russian MOD on CTR projects. This is an 
        important channel we should work to preserve.
        <bullet> These relationships more broadly are important when 
        viewed against the overall state of U.S.-Russian relations. 
        Russia, for example, has responded positively to U.S. requests 
        for non-proliferation assistance--jointly leading the Global 
        Initiative to Combat Nuclear Terrorism with us.
        <bullet> We continue to review the value of each of our 
        activities in Russia. I would remind the subcommittee that we 
        reviewed each of our projects in Russia in 2003 and revalidated 
        their non-proliferation value. We turned some activities over 
        to Russia completely and downsized our support for other 
        activities during that effort which was called the 
        ``rescoping'' in our testimony to this subcommittee. What 
        happened in 2003 was not intended to be the last word, and we 
        continue to seek opportunities to streamline our activities in 
        Russia. One example is the recent initiative by Russia to 
        assume partial responsibility for sustainment of nuclear 
        warhead security upgrades. We have a national security equity 
        in ensuring that the program is not turned over to Russia 
        precipitously, but we will not extend our presence any longer 
        than necessary.
        <bullet> Among CTR activities in Russia, it remains in the U.S. 
        interest to eliminate strategic delivery systems at their 
        source, even in the face of Russian modernization of its 
        strategic systems. Russia is going to modernize its strategic 
        systems with or without CTR assistance. The issue is whether we 
        have confidence that Russia will dispose of its old systems in 
        a responsible nonproliferable way. For the future we would have 
        less insight into, and less confidence in, the secure 
        elimination of decommissioned systems and launchers in Russia 
        if we were not participating in that process through CTR.
        <bullet> CTR activities in Russia, with the exception of road-
        mobile missile elimination, have surpassed the half-way point 
        in execution. From a fiscal perspective, infrastructure 
        investment is complete.
        <bullet> In 2008, the level of CTR activities outside Russia 
        will exceed the level inside Russia, and this trend will 
        sharpen in the coming years.

    CTR advocates have been asking when CTR will ``go global.'' It is a 
good question, and we are looking at opportunities. Congress has been 
very supportive in improving CTR's flexibility for different 
activities. But it is important to maintain perspective on a ``global 
CTR'' program. I would offer the following thoughts in this regard.

        <bullet> CTR will always be ready to address stocks of WMD if 
        they are found, and if applicable governments ask for our 
        assistance to eliminate them. However, the WMD threat is no 
        longer only about addressing WMD at its source. As we think 
        about CTR in a global context, it must be in the way CTR has 
        already been moving--increasing foreign institutional capacity 
        to address WMD threats. The bio-security case is a good 
        example. CTR's biological threat reduction program was 
        originally conceived to address the threat posed by the legacy 
        of the Soviet Biopreparat--a complex of especially dangerous 
        pathogens, infrastructure and scientific expertise. Biopreparat 
        doesn't exist outside the states of the former Soviet Union, 
        although a bio-terrorism threat does exist. Our challenge is to 
        make the original CTR bio-security model applicable to the 
        global threat. This is going to focus much more on building 
        foreign capacity than the infrastructure-heavy work that was 
        necessary to address the legacy of Biopreparat.
        <bullet> We should bear in mind that money is not necessarily 
        the best measure of non-proliferation success. As we look to 
        the future addressing the global WMD threat through partners' 
        political and policy commitments is as important as how richly 
        we fund our non-proliferation programs. Measuring success in 
        the non-proliferation business is not about money alone. We 
        will continue to work with Congress on this challenge.

    With the forgoing in mind, I am happy to report that we are ready 
to move forward with CTR to address global threats. We are ready to 
streamline legal requirements for CTR activities to match the type of 
activity being contemplated; we also want to begin working with DTRA to 
explore less expensive ways to accomplish CTR goals.
    We recently briefed congressional staff on our thinking about 
several potential CTR projects in sensitive areas. I should emphasize 
that CTR activities remain directed solely at combating WMD--no other 
purpose. However, some foreign partners might prefer that our 
cooperation not be made public. One new activity we can report is the 
Republic of Armenia's request for assistance with bio-security, to 
which we are actively responding. I should also note that the 
administration does not currently contemplate using CTR to address 
nonproliferation challenges in North Korea. CTR would have the 
technical capability to do so, but DOD is currently barred from 
providing assistance to North Korea by law; moreover, the 
administration has chosen to use other resources to pursue this work.
    Our internal thinking about CTR expansion will be informed by 
several studies on the matter. The National Academy of Sciences will 
conduct two studies mandated by legislation, one on CTR expansion 
outside the former Soviet Union and the other specific to expansion of 
CTR's Biological Threat Reduction Program outside the former Soviet 
Union. Additionally, a panel composed of independent experts was 
established in August 2007 to review future directions for Defense 
Threat Reduction Agency missions and capabilities; possible expansion 
of the CTR Program is one of the areas examined by the panel. In 
addition to these projects, we've asked the National Defense University 
to examine CTR's WMD-Proliferation Prevention Initiative for WMD border 
security, its achievements to date, and offer recommendations for 
possible future direction.
                 the proliferation security initiative
    The United States continues to work with the international 
community on strengthening the PSI, which President Bush launched in 
May 2003. Through the PSI, the United States collaborates with like-
minded countries to build capabilities for improving the interdiction 
of WMD and missile-related shipments, their delivery systems and 
related materials to and from non-state actors and states of 
proliferation concern.
    It is useful to think about PSI on three different levels, each 
strengthening the initiative but also mutually reinforcing each other. 
First, there is the political commitment that governments make when 
they endorse the Statement of Interdiction Principles. Since I last 
testified before this Subcommittee in April 2007, the number of 
countries that have endorsed the PSI Statement of Interdiction 
Principles has increased to over 85. This is more than a seven-fold 
increase since the eleven original PSI states launched the Initiative 
in 2003 and reflects the widespread recognition that PSI serves a 
unique role in a multi-faceted approach to non-proliferation. This May, 
PSI partners will commemorate the fifth anniversary of PSI in 
Washington. Senior leaders from all over the world will come together 
to take stock of the Initiative since its inception and share ideas on 
how to strengthen it for the future.
    The political commitment which underpins PSI is no small matter. 
Prior to PSI, interdiction activities existed. However, they were 
conducted principally through sensitive channels only. Today, the 
United States and any other state which has endorsed the PSI principles 
can call on another PSI adherent to take action based on their PSI 
commitments. This alone is a singular innovation brought about by PSI.
    Second, there is a significant capacity-building effort that is 
spearheaded by countries that participate in the Operational Experts 
Group (OEG), a group of 20 PSI partners that meets regularly to advance 
PSI objectives on behalf of all PSI participants. The OEG meets several 
times per year, most recently in London where the Ministry of Defence 
hosted the 16th OEG meeting in February. France will host the next OEG 
meeting in September 2008. OEG-participating countries bring their 
experts from the military, law enforcement, intelligence, legal, and 
diplomatic arenas to develop new operational concepts for interdiction; 
organize a program of exercises; share information about national legal 
authorities; and pursue cooperation with industry sectors that can be 
helpful to the interdiction mission. These capacity-building activities 
have positive spillover effects, such as helping countries fulfill 
their obligations to implement United Nations Security Council 
Resolutions (UNSCR) 1540 (Preventing WMD proliferation), 1718 (DPRK 
sanctions) and 1737/1747/1803 (Iran).
    To date, PSI partners have conducted over 30 live and table-top 
exercises, involving over 70 PSI partner states and exploring all modes 
of transportation: ground, air, and sea. Perhaps most importantly, we 
have seen the PSI exercise program evolve over time, from one dominated 
by the military's role in interdiction to one that appreciates the true 
complexity of interdiction and integrates the legal, law enforcement, 
intelligence, and policy challenges in a way that more accurately 
reflects real-world proliferation situations.
    Other notable achievements of the OEG include the publication of a 
model national response plan spearheaded by New Zealand, traffic 
cartography created by France, and a WMD and Missile Commodity 
Reference Handbook developed by DOE. These and other products are 
easily replicable and available to use in all PSI outreach efforts. 
Additionally, Germany is in the process of developing a web-based 
platform that will help record PSI lessons learned. These are only a 
few examples of tangible tools that have evolved out of the close 
cooperation among PSI partners.
    The U.S. plays an active role in the OEG and its capacity-building 
efforts. While DOD is responsible for leading the U.S. interagency's 
participation in the Operational Experts Group process, the full U.S. 
Government PSI team consists of experts from the Department of State, 
Department of Homeland Security (including Customs and Border 
Protection, Immigration and Customs Enforcement, and the U.S. Coast 
Guard), DOE, Department of Justice, the National Counterproliferation 
Center and the broader intelligence community, Department of Commerce, 
and the Department of Treasury. In June 2007, the U.S. Naval War 
College hosted a week-long PSI game in Newport, Rhode Island in which 
18 PSI countries participated (Australia, Canada, Denmark, France, 
Germany, Greece, Italy, Japan, New Zealand, Netherlands, Norway, 
Poland, Portugal, Singapore, Spain, Turkey, the United Kingdom, and the 
U.S.). In September 2007, the U.S. hosted Exercise Panamax that 
included a PSI interdiction scenario led by the Chilean Navy. In 
October 2007, the U.S. was represented robustly in Japan's Exercise 
Pacific Shield, contributing two Navy ships, one combined USN/USCG 
boarding team, and a broad interagency team of subject-matter experts 
to participate and observe. Additionally, Customs and Border Protection 
made two presentations on in-port operations. Most recently, in March 
2008, the U.S. participated in a maritime exercise called Guistir, co-
hosted by France and Djibouti, which was the first PSI exercise 
conducted in Africa.
    Looking ahead, the U.S. will send delegations of operational 
experts to participate in several foreign-sponsored PSI exercises, 
including Exercise Guistir which is jointly hosted by France and 
Djibouti and Exercise Adriatic Shield which will be hosted by Croatia. 
Finally, the U.S. has been busy contributing exercise and issue-
specific expertise to a major PSI exercise scheduled for September 2008 
in New Zealand. I am also pleased to report that DOD led a U.S. 
interagency team to Malta in February of this year to run the first 
ever tabletop exercise of one of our PSI bilateral shipboarding 
agreements. The exercise was an unqualified success and helped prepare 
both sides for the type of interagency coordination and time-sensitive 
decisionmaking that is required in any maritime interdiction 
opportunity.
    The third level of PSI is international collaboration on real-world 
interdictions. PSI has been an indisputable success in this regard. 
Building upon the shared commitment against a common threat and 
leveraging the capacity-building activities I just described, the U.S. 
has been able to work together more effectively with many of its PSI 
partners. Put another way, PSI allows partner countries to improve and 
practice interdiction-related actions to ensure our readiness to work 
together on ``Game Day.'' I want to clarify this element of PSI--the 
actual execution of an interdiction. When countries work together to 
impede, inspect, or actually interdict movement of suspect cargo, it is 
not done under a ``PSI treaty,'' or under the flag of PSI. However, as 
I mentioned previously, there is a commitment to PSI principles. Being 
able to invoke this commitment is a significant nonproliferation tool. 
There also are the habitual relationships, transparency and mutual 
understanding of capabilities built through the PSI process. This 
results in real world activities being conducted by the same people who 
work with each other during scenario-driven PSI exercises and 
information exchanges. Because of PSI, we understand better the 
differences in national authorities and processes. We also have a 
better sense of which PSI partners will be more willing to ``lean 
forward'' in certain circumstances, especially those located along 
primary routes of proliferation activity.
    Finally, let me address the issue of positioning PSI for the 
future. As we prepare to commemorate the fifth anniversary of PSI at 
the end of May, we are naturally looking ahead to plan ways to grow and 
strengthen the Initiative. Congress has shown similar interest, asking 
in recent legislation that the President include in his annual budget 
submission a description of the PSI-related activities, including 
associated funding, that are planned to be carried out by each 
participating U.S. Government agency or department. This requirement 
presents DOD and other participating agencies with a challenging task, 
since PSI was conceived as a flexible, adaptive initiative that 
leverages existing capabilities, activities and authorities rather than 
creating new ones. For example, PSI-related interdiction scenarios are 
often injected into existing military exercises, as was the case with 
Southern Command's Panamax 2007. Furthermore, since the majority of PSI 
exercises in which U.S. assets participate are foreign-hosted, there is 
significant difficulty associated with aligning our own planning and 
budget cycles with those of foreign governments.
    Congress is entitled to timely, accurate information about PSI 
activities. I can promise that we will work diligently to ensure that 
your questions are answered and that oversight is accomplished for PSI.
    PSI has helped to address an important aspect of our 
nonproliferation challenge. We will continue to work closely with our 
PSI partners and with Congress to maximize its potential.
                               conclusion
    Mr. Chairman, I want to emphasize a point I made at the outset of 
my statement: CTR and PSI are but two pieces of a much larger national 
strategy to combat WMD. Since September 11, 2001, we have made 
significant progress. I think that CTR and PSI are key examples of that 
progress. PSI, of course, did not exist in 2001, and CTR was a 
different program. Despite the good work that has been done by CTR and 
PSI, we have much more to do across the spectrum of WMD threats before 
we can testify with confidence that all of our Government's tools to 
combat WMD are being integrated fully and effectively. The Department 
looks forward to continued close coordination with Congress as we 
address this challenge.
    Thank you.

    Senator Reed. Thank you very much, Mr. Benkert, again for 
your excellent testimony.
    We will begin a 7-minute round. I believe Senator Nelson is 
going to join us also, but I assume we will do at least two 
rounds. We have lots of questions.
    Also, the record will remain open for 2 business days after 
the hearing if other members want to inquire by writing 
questions to you, Mr. Tobey and Mr. Benkert.
    Let me ask a general question, one that is I think is 
necessary to get on the table. I understand that you support 
the President's budget, but are there any particular areas 
where additional funds could be used and are needed? Let me 
start with Mr. Tobey and then Mr. Benkert.
    Mr. Tobey. We believe that the budget that we have put 
forward is sufficient for our needs.
    I think the best way for me to answer that question would 
be perhaps to talk about the priorities that we see. There 
again, I would return to the themes that I outlined at the 
beginning which are that we are actually accomplishing our 
tasks in a couple of areas, the first line of defense, and the 
security upgrades in Russia. That work is winding down I think 
in good ways. We are also completing our tasks on the 
elimination of weapons grade plutonium production with the 
construction of fossil fuel power plants that will allow the 
shutdown of the last three remaining plutonium production 
reactors in Russia.
    At the same time, we have set out the need to beef up our 
work on the second line of defense, the megaports and the 
border crossings, and we are shifting resources in that 
direction. We believe that we need to spend more time and 
effort on the radiological threat, and we have devoted more 
resources to that. I should actually maybe characterize it as 
the civil nuclear and radiological threat. So that would 
include both the reactor conversions and the radiological 
material. Then there is a significant R&D piece that undergirds 
all of this.
    Then the final thing that I would say--and I am sure you 
will want to discuss this in greater detail--is we have a 
contingent liability with respect to North Korean disablement 
and dismantlement which we are, frankly, uncertain about. We do 
not know what the opportunities will be to disable and 
dismantle their program this year, and therefore, we are 
uncertain as to exactly how much in the way of funding we would 
need. But the needs could be quite substantial if progress 
would be as we hope.
    Senator Reed. Thank you.
    Mr. Benkert.
    Mr. Benkert. Thank you, Mr. Chairman.
    I am obliged to note, I think, first that it is probably 
the case with CTR that the budget is, of course, not the only 
measure of the performance of the program and the value that 
you get from this program. That said, we greatly appreciated 
the additional funds provided last year, and I think my answer 
this year would be similar to what it was last year.
    The budget request, as we have submitted it, as I noted, is 
above what we provided last year, and I believe it is adequate 
to the task. I would note, in particular, as I mentioned in my 
oral testimony, the fact that the program in Russia, in terms 
of dollars in particular, is declining, as we work our way 
through these older CTR programs which were very heavy on 
infrastructure and therefore more expensive.
    The growth areas in the program and the areas where we are 
putting additional funds and would put additional funds are in 
programmatics. It is the biological program, the biological 
threat reduction program, which has grown substantially over 
the last several years, and what we call the proliferation 
prevention initiative, which is this program to build border 
security capabilities to interdict WMD and related materials in 
transit to get at one of these fundamental requirements that I 
mentioned in my testimony to try to stop WMD or related 
materials on the move or in transit.
    Those are the two areas that are growth areas, and they are 
growth areas not only because they are important in states of 
the former Soviet Union, but they are also programs that are 
very relevant as we look at expanding CTR outside the former 
Soviet Union. So I think that is where our focus will be. As we 
look at additional funds for the program, it will be in areas 
outside the former Soviet Union and primarily in being able to 
bring these programs, which we have now developed and I think 
are applicable outside the former Soviet Union, the biological 
threat reduction and the border security proliferation 
prevention initiative.
    Senator Reed. Thank you.
    You have both commented on the changing nature of Russia 
both economically and otherwise. One of the issues I think--and 
this is more general in particular--is to what extent they have 
internalized these efforts. We started off in a relationship 
where we were pressuring them, I think fairly said, to do this. 
We were providing money. Now we have reached a point where 
their economy is robust.
    Are they going to be able to pick this up, and from your 
perspective, have they made this internal to their 
decisionmaking? They understand it is in their best interest. 
They understand that this is in the interest of the broader 
world community. Or is this a situation where our decrease in 
resources may signal to them that it is not important any 
longer?
    I know this is more impressionistic than analytical, but I 
would like your impressions. Mr. Tobey and then Mr. Benkert.
    Mr. Tobey. I think the evidence is somewhat mixed on that 
point. I would note, first of all, that just because, for 
example, the Russian oil and gas sector is much more prosperous 
than it has been in the past, that does not necessarily 
transfer automatically to the nuclear weapons sector. I would 
note further that there are disparities even within that sector 
where some institutes are more prosperous than others. So the 
flow of resources is not yet perfect.
    Second, I would note that empirically the Russian 
commitment to these issues has not been what we would hope it 
to be, and that is why we had to take action in the first 
place. I think that is improving. As I alluded to during my 
statement, we had for the first time a real discussion with 
senior military officers about how our budget is coming down, 
yours must come up, and we have to coordinate these 
expenditures. The statement about what they had allocated was 
new to us. It was a relatively modest sum of money. It is not 
going to be sufficient over the long haul, but I was encouraged 
by the fact that they had asked for it and they had received 
what they had asked for.
    I would add further that you may know that we have reached 
an agreement with Rosatom on principles for sustainability, and 
we will be attempting to make sure that that is implemented.
    I would say that with respect to the military, while we do 
not have a formal agreement with them, my impression is that 
their commitment to sustainability may actually even be 
stronger.
    Senator Reed. Mr. Benkert?
    Mr. Benkert. I would agree with Will Tobey's assessment, 
that it is a mixed bag and it is a mixed track record. I think 
there are a number of positive signs, though, and let me just 
mention two.
    First, on this issue of sustainment, particularly of the 
warhead security upgrades that we have done with DOE, the 
Ministry of Defense at the end of last year advised us that 
they acknowledged that it was their responsibility to sustain 
the security upgrades at the permanent sites where we have 
installed these upgrades and informed us that funding would be 
provided in the budget for the entity within the ministry that 
would be responsible for this. That is good news, and now we 
have to see how this plays out over time. But that is a 
positive development because, clearly, we want them to pick up 
the responsibility to sustain these things we put in place.
    The second example that I would point to--and I mentioned 
this in my oral statement--is the commitment that they have 
made at Shchuch'ye in this joint commitment on both of our 
parts to make sure this facility gets completed and begins 
operations at the end of this year on time. The fact that the 
Russians acknowledge that as part of these new arrangements 
that we have made for how we would do the contracting to 
complete this facility, the Russians made a written commitment 
that if it turned out that U.S. funding was not adequate to 
complete the work that we have signed up to do, that the 
Russians would provide the funding. Now, that has not been an 
issue yet because the funding that we have is adequate for what 
we are doing so far. So this, again, remains to be tested.
    Nonetheless, I think it was a serious commitment, and I 
think it reflects the fact, for example, that the Russians 
understand that it is in their interest to destroy these 
chemical weapons. They want to meet the commitments, I think, 
that they have signed up to under the CWC, and they realize 
that they have to take responsibility to get there rather than 
just relying on help from the international community to get it 
done. So I think these are positive signs.
    Looking down the road, the thing that I think is the 
highest on my radar screen at least of the things to watch is 
how they do with sustaining these warhead security and related 
security initiatives, which clearly are going to require a 
long-term commitment, and are one of the things that we really 
want to watch over the long term as evidence that they have 
really taken this aboard.
    Senator Reed. Thank you very much. I have many other 
questions, but now let me recognize Senator Dole.
    Senator Dole. Thank you, Mr. Chairman.
    Mr. Benkert, you mentioned the work with Albania and also 
that you are looking to help in Armenia as well.
    I understand that there are some stockpiles--this goes back 
to pre-1991--of chemical weapons in Iraq, and they are in a 
bunker under our guard. I am wondering if using CTR assistance 
to help Iraq destroy those chemical weapons is something that 
is being contemplated. If so, what factors is the 
administration considering as it weighs these decisions? What 
would be the estimated cost and timeline? If you could just lay 
out where you are with regard to Iraq.
    Mr. Benkert. Certainly CTR is a possibility in dealing with 
these weapons. Let me just give you where we stand with this.
    As you said, there are a number of old Iraqi chemical 
weapons, and these are old weapons in various states of 
degradation that are at a facility in Iraq. They are secure. We 
have invested in some security upgrades to make sure that the 
weapons are secure where they are, that they are properly 
monitored, and that there are quick response forces and so 
forth which are able to deal with any potential threat. So the 
weapons are secure as they are.
    The issue will be the disposition of these weapons in the 
long term. Iraq will likely accede to the CWC in the near 
future, possibly as soon as the next session here this month. 
When they do, then they will have to address the issue of what 
to do with these old weapons that they have.
    As I said, our assessment is that there is not a great 
security threat to the weapons now because of the security 
upgrades we made on the site, but there is an issue of what 
Iraq does with them in the long-term. So we are working through 
this internally, as well as the Iraqis, on what we might do 
once the Iraqis have signed up to the CWC and what their 
obligations will be about these weapons. There is a very 
practical issue of whether they can simply just be secured 
where they are and if that would be adequate or whether they 
need to be destroyed.
    The destruction of these weapons would not be a trivial 
task. As I said, the assessment before they were sealed up was 
they were in bad shape. The weapons are in various states of 
decay, and to get at them and destroy them would probably be an 
expensive proposition and not easy. But that may be the way we 
need to go, and we are examining that now.
    Senator Dole. What about Libya? Libya was seeking 
assistance, and there was a phase there with DOD. Where do we 
stand on that, and is that a possibility that CTR might 
undertake?
    Mr. Benkert. Again, it is a possibility. There was an 
interagency decision several years ago that assistance to Libya 
in destroying its chemical weapons will be provided through the 
DOS's nonproliferation and disarmament fund.
    Senator Dole. Right.
    Mr. Benkert. There are a variety of reasons why that was 
done, including the fact that the thought was it would be 
quicker. CTR has sort of a way of doing business that sometimes 
takes time. The idea was this would be faster, and so it would 
be better at the time.
    The Libyans now, as we understand it, have decided to use 
their own funds to contract with companies to destroy these 
weapons, which are old blister agent weapons. So we are in 
close contact with our colleagues at the DOS to see if any 
additional assistance is required. If it is, we certainly have 
the authority now to provide that and even some earmarked funds 
from last year's appropriation, should there be a desire to do 
this. But as I said, we are working with our DOS colleagues 
here to see what may be required of us going forward.
    Senator Dole. Mr. Tobey, pursuant to the agreement of the 
Six Parties with North Korea, of course, they are in the 
process of disabling and dismantling the nuclear facility 
there. Could you update us in more detail regarding the role of 
DOE, what role it is playing now and what you see in the 
future, if everything continues to go as we hope it will in 
North Korea?
    Mr. Tobey. Certainly, Senator Dole. Since roughly November 
1st of last year, we have had DOE personnel at the North Korean 
nuclear facility at Yongbyon essentially 24/7. They have been 
overseeing the task of disabling the three North Korean nuclear 
facilities that are in the present stage of the disablement 
phase. There were essentially 11 key tasks, 8 of which have 
been completed. The DOE personnel, working with DOS personnel, 
have been overseeing these tasks.
    Senator Dole. Thank you.
    Mr. Benkert, the National Defense Authorization Act (NDAA) 
for Fiscal Year 2007 required the National Academy of Sciences 
to conduct a study that would identify areas of further 
cooperation through CTR with Russia and other former Soviet 
Union states on biological weapons proliferation prevention. 
That report was to be submitted to Congress, I believe, by 
December 31 of last year.
    Can you give us a brief assessment of the National Academy 
of Sciences report, and whether it yielded any suggestions for 
future CTR work in this area that the Department views as 
potentially valuable? I am interested in where we are on that 
report and if you could just update us and when we might expect 
to receive that in Congress.
    Mr. Benkert. Thank you, Senator Dole.
    First of all, let me apologize for our delay in submitting 
the report, and you are looking at the guilty party here about 
why it has not arrived up here sooner.
    The National Academy of Sciences did a great job--it is a 
good report. Part of the delay was I have actually spent some 
time with the authors of the report to make sure we understood 
what they had suggested and how we might move forward on this.
    The National Academy of Sciences report has six principal 
recommendations. Our report to you, which you will, I think, 
see within a few days, I hope, will endorse the six 
recommendations that the National Academy of Sciences made and 
then provide a little detail on how we are moving forward with 
these things. In some cases, we have already started doing so. 
In other cases, they are new.
    The basic theme of the report--and we are very much, I 
think, in sync with this--is to move from a program of 
assistance to collaboration, that is, on the notion that at the 
beginning of CTR, this was mostly a program of us going to 
Russia and other states of the former Soviet Union and saying, 
okay, here is what we want to do, here is what you need to do, 
let us go do it. It was very much an assistance program. The 
philosophy of the National Academy of Sciences program is that 
as we move forward, particularly as we move outside the former 
Soviet Union, that this needs to be a much more collaborative 
program. So rather than assistance, that we work with countries 
to draw out from them what their needs are, what their thinking 
is, and to get them involved in a more collaborative way rather 
than simply delivering assistance. We agree with that and want 
to build that into our approach, again particularly to 
countries outside the former Soviet Union.
    So it is a good report, and I am hopeful you will see it 
shortly.
    Senator Dole. Thank you very much.
    Senator Reed. Thank you very much, Senator Dole.
    Mr. Benkert, early last year, the CTR program significantly 
changed its approach to the Russian chemical weapons 
destruction effort by contracting with the Russians to complete 
the project for a fixed price. Can you tell us how that is 
going and that we have assurances that the funded facility, if 
started, will run safely in a timely fashion?
    Mr. Benkert. Mr. Chairman, as you said, this was a change 
in the way we did business. My report at this point is so far, 
so good. This approach of contracting for a fixed price through 
a Russian entity is so far working and we are on track. The 
first building and the associated and required infrastructure 
will be in operation by the end of the year.
    There are a couple of checks and balances to make sure that 
it can be operated safely. First of all, the Organization for 
the Prohibition of Chemical Weapons will see the facility 
before it is put in operation. That is one check. Our 
contractors will have access to it to verify that equipment has 
been installed properly and so forth. That is a second check. 
Then I think the third check is certainly that the Russians 
themselves have an interest in making sure the facility is 
operated safely since they have a large program in front of 
them with particularly dangerous materials, and they have 
certainly expressed to us their desire to make sure this is 
done properly.
    But I think so far, so good, but we are watching it 
carefully.
    Senator Reed. One of the other aspects that we have alluded 
to in the questioning is the rising value of the ruble. This 
contract is denominated in rubles. Do you have some of the 
agida, as we say in Rhode Island, that many people have now, as 
the dollar declines and other currencies increase?
    Mr. Benkert. Yes. That could be an issue. I think at this 
point the project manager's assessment is he has adequate 
reserves to deal with this. But that also has to be closely 
watched.
    Senator Reed. In fiscal year 2008, Mr. Benkert, Congress 
appropriated $1 million for chemical weapons destruction to 
keep the account open. The $1 million was recently included in 
the February notification of CTR funds. No money has been 
requested in the fiscal year 2009 budget request. Should some 
money be included in the fiscal year 2009 budget line just to 
keep the account open?
    Mr. Benkert. Mr. Chairman, we have not requested it for two 
reasons. One is because our assessment is with the new 
arrangements with Russia, we have adequate funds to complete 
the project. Then the second is--and I think this is perhaps 
even more important--that the Russians have committed that if, 
for some reason, we are not able to complete the project within 
the funds that we have, that they will make up the difference. 
I think that is significant, and I think rather than us 
providing any more money up front, I think we want to let this 
play out and test this Russian commitment.
    Senator Reed. Let me switch to a topic that Senator Dole 
has raised, which is very important, that is North Korea. Today 
DOE is doing some work there in support of our efforts. As you 
pointed out, Mr. Tobey, in your statement, one of the 
uncertainties you face this year is whether or not you will 
receive--which may be good news that you have to do a lot more 
work there if there is a real breakthrough. Can you give us 
your estimate of how much contingency funding you might need?
    Mr. Tobey. I can in the abstract, anyway. If we got a full 
go-ahead tomorrow to go in and complete the disablement as fast 
as we could, we would estimate that we would need an additional 
$50 million in fiscal year 2008 to carry out these activities. 
Now, some of that might be achieved through reprogramming or 
other means. I am talking about absolute amounts, not 
necessarily deltas from what we have already received.
    Then in fiscal year 2009, as much as $360 million might be 
required to continue these efforts. The large jump, of course, 
has to do with the fact that it would be the plan to remove the 
spent fuel from North Korea which bears plutonium.
    I should also add--and I have been chided in the past for 
perhaps being too literal in my answers--in response to Senator 
Dole's question and our role, I probably should also have added 
that our work there is being funded through the DOS because the 
Glenn Amendment restrictions apply to us. That is another issue 
with respect to the funding for disablement. That is an issue 
where, frankly, I personally would very much like to see relief 
from the Glenn Amendment, in order for us to be ready to move, 
if it is possible to do so. I would hate for us to be caught 
flat-footed with an inability to even rearrange the funding 
that we now have.
    Senator Reed. Mr. Benkert, the DOD has a role there too, 
particularly if the agreements are reached to destroy the 
delivery systems, et cetera. Can you give us a notion of 
whether you expect you will have any contingent funding going 
forward in 2009?
    Mr. Benkert. We have not asked for or planned for 
contingent funding. In the interagency discussions so far, it 
has not been contemplated that DOD CTR would have a role here. 
We also are covered, obviously, by legislative restrictions on 
our ability to use CTR in North Korea. So at this point, we 
have provided support to the interagency effort through the 
Defense Intelligence Agency (DIA) and others and would continue 
to provide that support, but we are very much in a support role 
here and have not planned for the use of CTR funds for this.
    Senator Reed. The role is support, very gentle support. You 
have not specifically looked at a scenario where you would--and 
I think this is a long shot, unfortunately--be called upon to 
go in in the immediate future this year or next year to start 
dismantling delivery systems.
    Mr. Benkert. We have done some internal thinking about 
that, but we have not looked at that again, given the division 
of responsibilities currently in the interagency.
    Senator Reed. Both of you gentlemen are following the 
discussions quite closely. Can you give us some insights as to 
what seems to be the stumbling blocks at the moment as to 
whether this is the usual sort of negotiating style of the 
North Koreans or there is a significant impasse or whatever? 
Mr. Tobey, your comments.
    Mr. Tobey. It is very difficult to speculate about North 
Korean motivations. I guess I would say we are still waiting 
for the declaration that they have promised, that it would be 
full and complete. Until we get that, it is going to be 
difficult to move forward.
    Senator Reed. Any comments, Mr. Benkert?
    Mr. Benkert. I would just second Will Tobey's comment, that 
it is very difficult to speculate about North Korean 
motivations, and I do not think I would want to do that.
    Senator Reed. I think I would concur.
    Senator Dole, we could probably do a third round for any 
additional questions. Senator Dole, please.
    Senator Dole. Thank you.
    Mr. Benkert, I had asked about the National Academy of 
Sciences. This was the 2007, but NDAA for Fiscal Year 2008 
requires the National Academy of Sciences study to analyze 
options for strengthening and expanding the CTR program. What 
is the status of your efforts to contract with National Academy 
of Sciences for this study, and when do you expect that study 
might be completed? So if you could comment on that one as well 
and whether you think this will prove useful to an incoming 
administration as they assess and review the current CTR 
program and consider policy and program options for the future.
    Mr. Benkert. I think this will be a very useful study for 
the next administration. So we are pressing the National 
Academy of Sciences to get this done by the end of the year. 
The National Academy of Sciences does very good work. Sometimes 
the timeline is a little longer than one might hope for, and so 
in this case, we are trying hard to make sure that they are 
able to get this study done by the end of the year so that it 
is, in fact, in place and in position for the new 
administration.
    I think it will be very helpful. I think the track record 
of this entity and the previous work that they have done for 
us, at your request, has been very good, and I think the timing 
of looking at what they will look at in the expansion of CTR 
will be very good, if they can get this done before the next 
administration is in place and in time to affect next year's 
authorization and appropriation.
    Senator Dole. Mr. Tobey, a December 2007 Government 
Accountability Office (GAO) report was very critical of the 
GIPP program, which is intended to redirect scientists and 
technical personnel with WMD know-how into sustained non-
military employment.
    Separately, there were allegations that appeared in the 
press that the program has funded institutes and scientists 
that have been aiding the Iranian nuclear program.
    Could you just share with us your assessment of the GAO 
criticisms and tell us what steps are being taken to respond to 
that? Then separately, tell us in your view if there is 
anything whatsoever to those allegations that have been 
separately made.
    Mr. Tobey. Sure, and I welcome the opportunity to talk 
about this.
    With respect to GAO, we actually agreed with all of their 
recommendations save one, and that recommendation was to 
undertake a comprehensive review of the program. The only 
reason why we did not agree with that recommendation was, 
frankly, that such a review was undertaken in the summer of 
2006, and its results had not yet been fully implemented. We 
thought that that review actually addressed the concerns that 
the GAO had raised.
    As a result of some of the concerns that were expressed by 
Members of Congress and in the media, we have undertaken a 
thorough assessment of exactly what is going on and taken some 
interim steps and are working to consult with other Members of 
Congress and stakeholders about longer-term steps.
    I should say at the outset that what we have found is that 
there were no payments made to individuals or institutes under 
sanction by the U.S. Government. There is also no evidence that 
U.S. funds or technology supported Iranian nuclear projects, 
contrary to some of the wilder claims that have been made in 
the media.
    What we have found is that in a few cases we have funded 
projects at institutes that have conducted work with Iran. Now, 
I should note when we undertake these projects, our aim is to 
divert scientists from working on projects that would be of 
concern. When we do this, we contract with them for specific 
deliverables which we insist upon before we make payment, and 
we provide a very small overhead, only about 10 percent, which 
I think compares quite favorably with overhead rates that are 
paid, for example, in the United States where academic 
institutions can receive 30-35 percent. So I think that the 
overwhelming evidence is that nothing that we did could be 
construed as contributing in any way to the Iran nuclear 
program.
    It is possible that our programs have not been perfect in 
diverting all Russian scientists away from activities that we 
would prefer them not to do, but frankly, I would never claim 
that as a goal for this program. It is simply not possible.
    It has seemed to us that a balanced nonproliferation 
program must include both material security and technology 
security. The material security is relatively noncontroversial 
and we have discussed it at length. In terms of technology 
security, one of the ways to address this is to try to ensure 
that scientists have alternatives to going to work on projects 
that would be of proliferation concern.
    By definition, I would acknowledge that we cannot guarantee 
that they cannot be diverted. We are not in a position, for 
example, to bid large amounts of money for every scientist in 
Russia that could be bid for by a proliferant state. Instead, 
what we can do is try and engage with them to provide 
alternatives and also, frankly, to understand better what is 
going on at the institutes.
    In terms of steps that we have taken--and I would say that 
these steps have been taken in response to really four factors: 
first of all, the changing conditions in Russia that you have 
both alluded to and we recognize; second, the internal review 
that was conducted in the summer of 2006; third, the GAO 
report; and then fourth, the concerns that have been raised by 
Members of Congress.
    We have decided on some interim steps which basically were 
to try and hold fast and make sure that by any reasonable 
standard, we did not somehow make things worse. So we have 
placed on hold projects at institutes having any involvement 
with Iran.
    Now, I should note that some of those projects have to do 
with the Bushehr reactor, and it is a matter of interagency 
deliberation at the moment as to exactly what status should be 
given to that. I would note, for example, that the Bushehr 
reactor is specifically carved out in United Nations Security 
Council resolutions banning other forms of nuclear cooperation. 
In fact, because of our policy on these matters, Russia has 
modified the conditions under which it provides some of this 
assistance such that there will be fuel returned.
    I would also note that I think one of our overall policy 
objectives has been, in working with our allies and with Russia 
and others, to offer the regime in Tehran a choice between 
having international cooperation, including peaceful nuclear 
energy, or the present path that they are on which involves an 
indigenous enrichment program. That has been an open choice for 
now a matter of years that we have attempted to present to 
them.
    We have also put on hold projects that had to do with fuel 
cycle research. We actually feel that it is helpful for 
nonproliferation projects to fund fuel cycle research which 
would provide technology for a fuel cycle that is less subject 
to proliferation. In some ways it is a proliferation twofer. 
You get the scientists off of the projects we are concerned 
about. You put them on advancing technology that we believe 
will be necessary to implement an expansion of nuclear energy 
that is, we believe, inevitable. But we recognize that it has 
been controversial with some, and therefore, we have placed it 
on hold.
    Then the third interim step that we have taken was to 
engage the U.S. interagency to address some of these questions 
that I have already alluded to and also to make sure that our 
program is better aligned with exactly what the DOS is doing. 
So we want to make sure that the two programs are completely 
consistent.
    Over the longer haul, we have been talking with Members of 
Congress. I certainly appreciate the opportunity to discuss 
this issue with you and would welcome input on this. We have 
put forward a tentative plan that we would like people to 
comment on and to see if we can rebuild a consensus that would 
involve continuing work at high priority institutes, but 
phasing out the work at institutes of lower priority, gaining 
Russian agreement over the next several months to an approach 
on cost sharing, continuing programs that deal with scientists 
in Iraq and Libya, and maintaining a readiness to support such 
projects in North Korea, were it in fact to be possible, 
pursuing nonproliferation technologies outside of this program. 
In other words, if there were ways in which we can advance 
safeguards technology, we would engage directly through a 
safeguards cooperation. Then finally, finalizing 
interdepartmental and interagency agreement on an approach to 
this whole process so that we would be consistent across the 
board. This may also entail some cost savings as we phase out 
some of these programs.
    Our intention, again in consultation with Congress, would 
be to shift probably to the next generation safeguards 
initiative and North Korea, as required.
    Senator Dole. Thank you very much.
    Senator Reed. Thank you, Senator Dole.
    I have three topics I would like to pursue further, and I 
want to thank Senator Dole for her excellent questions. If you 
have additional questions, you will be recognized.
    Mr. Tobey, let us talk about the fissile materials 
disposition program. Specifically, funds were made available by 
Congress to support a jointly funded effort between Russia and 
the United States to look at gas reactors for plutonium 
disposition. Has the funding been released to this effort from 
2006, 2007, 2008, and if not, why have the funds not been 
released and who is controlling the funds?
    Mr. Tobey. We have funded in prior years with the Russians. 
In fact, I would note also that one of the institutes that was 
of controversy under the previous question is one of the very 
same institutes that is working on gas reactors.
    My understanding is that there was also funding made 
available by Congress through the Office of Nuclear Energy, and 
the last I had heard was that they were going to make those 
funds available for the project in Russia.
    Senator Reed. With respect to the mixed oxide (MOX) fuel 
program, it has an interesting appropriations history as well 
as authorization history. In fiscal year 2008, the Energy and 
Water Appropriations bill moved most of the funding to the 
Office of Nuclear Energy. Some money was moved to NNSA for 
their weapons program. This committee authorized NNSA to carry 
out the program. So there is quite a bit of confusing 
direction.
    So could you help clarify? Is your office carrying out the 
fissile material disposition program in the context of MOX? If 
not, why not? How are you sorting out these conflicting 
signals?
    Mr. Tobey. You are right. It has been a confusing 
situation, Mr. Chairman.
    The DOE's General Counsel has examined this issue, and what 
they have determined is that the provisions of the DOE 
Organization Act and the NNSA Act prohibit the Secretary of 
Energy from transferring the MOX program outside of NNSA, 
absent specific statutory authority to do so. Now, that 
decision or that viewpoint is a relatively new one, although I 
would say that for at least the past several weeks, they had 
been of a view that that was likely to be where they would come 
out on this. They were trying to make sure that they had done 
all the necessary legal research.
    As a result of that, what we had done is executed what they 
call an economy act transfer where the money that was 
appropriated through the Office of Nuclear Energy would be 
transferred to the fissile materials disposition program, which 
continues to operate that program. So we have moved forward on 
that basis.
    I would also note that the Appropriations Act moved the pit 
disassembly facility and the waste solidification plant to the 
Defense Programs Office, and the restrictions on the 
Secretary's authority to move such programs within NNSA are not 
present. In other words, the NNSA Act would allow the Secretary 
to do that as a matter of comity, and he and the Administrator 
of the NNSA have decided to do so. So those smaller projects 
will be operated by the Defense Programs Office.
    Senator Reed. But you are operating the larger project as 
of today.
    Mr. Tobey. Correct.
    Senator Reed. One of the aspects of the MOX program is the 
commitment by the Russians to dispose of 34 metric tons of 
plutonium. Will that commitment be made? Are we on track for 
that?
    Mr. Tobey. Given the long and somewhat sad history of this 
program, I am not eager to over-promise exactly what the 
Russians will do. But I will say that I think we have made 
significant progress over the last year.
    Frankly, if I could expand my answer, I think as I had 
understood it, when I came before Congress both in my 
confirmation and later in budget hearings, we were asked to do 
three things. We were asked to make sure that the baseline was 
defensible and executable, to look at additional missions for 
the facility that would make it more cost effective for the 
U.S. taxpayer, and to get the Russian part of the program in 
order.
    I think we have, frankly, delivered on all three. We 
submitted a $4.8 billion baseline for the project. We brought 
the preconstruction activities in under cost. There are 
substantial reserves within that baseline. We have the design 
90 percent complete, and frankly, if it were not for the 
funding cuts, we would be confident of being able to keep to 
that baseline.
    The second thing we were asked to do was look at additional 
missions, and there we brought forward three possible options, 
all of which could be executed at probably not much additional 
cost certainly in terms of either construction or design. As 
you may know, the Secretary of Energy decided that an 
additional 9 metric tons of plutonium could be moved from 
defense stockpiles to disposition, and we have the option to 
run that through the MOX facility. Additionally, we believe 
that further non-pit plutonium, which had been destined for 
other disposition paths, can be put through the MOX facility. 
Then finally, should the Global Nuclear Energy Partnership 
(GNEP) require driver fuel for fast reactors, we believe that 
that could be fabricated through the MOX facility which would 
substantially, by more than 25 percent, increase the mission 
and therefore cost effectiveness of the facility.
    Then finally, with respect to the Russian program, as I am 
sure you are aware, Secretary Bodman and Director Kiriyenko 
signed a joint statement providing for what we believe is a 
technically and financially credible Russian path. I am 
encouraged by this not because I necessarily trust that the 
Russians are going forward based on this joint statement, but 
because I believe it is consistent with the path they want to 
take for their own purposes. It relies on fast reactors, and 
this is another area in which we have capped our commitments in 
terms of providing assistance to the Russians. Under the 
original 2000 agreement, while the figure of $400 million was 
discussed within the agreement, the Russians would tell you 
that they basically expected either the United States or other 
members of the international community to pick up whatever 
their costs were. Therefore, I think it was less than certain 
what would be done. Now we have a joint statement in which U.S. 
costs are capped at $400 million, and the Russians have agreed 
to move forward with this program regardless of other outside 
sources of funding.
    Senator Reed. Thank you, Mr. Tobey.
    You mentioned the topic of my next question, which is the 
GNEP. The budget request has NNSA supporting this effort in 
many different ways. It is hard to determine precisely where 
all the money is going. But it raises a question because the 
essential goal of the GNEP is to promote the next generation of 
nuclear power. The central mission I think of your organization 
is to act as one of the chief watches on proliferation, et 
cetera. The question arises to what extent that this work 
should really be done by the Office of Nuclear Energy and not 
NNSA and also the basics of how much money is being spent by 
NNSA on this mission rather than what I would argue are more 
centrally commanding missions.
    If you could just briefly respond. It might even be useful 
to follow up in writing.
    Mr. Tobey. Sure. I guess what I would say is that we have a 
history of providing funding for proliferation-resistant fuel 
cycle technology even before the GNEP. I think it would be 
necessary to provide that funding whether or not GNEP existed. 
It is my view that regardless of the policy decisions the 
United States takes on GNEP, nuclear energy will expand across 
the globe. Ambitious plans have been announced by Russia, 
China, and India, quite large plans, and then there are a whole 
host of countries that are undertaking somewhat smaller plans. 
So we think it is important that the proliferation resistance 
of the fuel cycle be increased to accommodate the growing 
demand for nuclear power.
    Our spending on this really has been related to that 
nonproliferation goal, and I would argue that frankly we would 
be spending about the same amount whether or not GNEP existed.
    Senator Reed. Thank you. I think what I will do is ask the 
staff to prepare a more specific request and try to detail the 
spending and the rationale associated with your logic, that is, 
really to make the new generation more resistant to 
proliferation and diversion of materials.
    Mr. Tobey. Sure.
    Senator Reed. The final question, Mr. Benkert, is that you 
have noted, we have all noted, throughout that the thrust of 
CTR is now moving outside of the former Soviet Union. Can you 
give us a notion from your perspective of the priority areas 
that you want to be able to engage in based upon both threat 
and opportunity?
    Mr. Benkert. I cannot give you a definitive answer today 
because we are still in the process of looking at this. We have 
come up with an evaluation process to look at potential 
countries in terms of threat, other opportunities, and so 
forth, and are working through this matrix. We would be happy 
to come back to you in the not-too-distant future and tell you 
what we have.
    Again, this is very preliminary. Initially I think there 
are some opportunities probably near where we are working now, 
that is, Central Asia, South Asia, that look like that would 
probably be at the top of the list.
    But I think one of the interesting things about, as I 
mentioned, these two relatively new areas of CTR, that is, the 
biological program and the border security proliferation 
prevention program, is these are things that have very wide 
applicability. If you are looking to secure nuclear material at 
its source, there are only a certain number of places you can 
go. If you are worried about being able to deal with places 
where someone could, in theory, take a pathogen and weaponize 
it, the universe is much greater or places where naturally 
occurring diseases could have disastrous impact. So it casts 
the net much more widely than we have ever done before. So we 
need to go through this in a careful way before we launch off 
in these new countries.
    Senator Reed. I appreciate that and I would be very eager 
to listen to your conclusions when you reach them because I 
think we are at a point now where the old rules are changing. 
Russia has changed. You have done remarkable work there. Now we 
have to look at a new strategy, a new approach going forward.
    Just a final point, and this follows on the discussions 
that we have had briefly surrounding Iraq. The country still 
has a huge reservoir of chemical weapons, and as you point out, 
unfortunately, many countries have potentially some biological 
weapons, radiological weapons.
    Is there any active work going on now to cooperate with the 
Government of Iraq to begin a serious reduction of their 
stockpiles? There is a very bad outcome if we draw down 
militarily there and leave a country which is of questionable 
stability with thousands and thousands of nerve gas shells.
    Mr. Benkert. As I mentioned before, I think the first 
effort was just to secure what is there.
    Senator Reed. Right.
    Mr. Benkert. I think that has largely been done.
    The issue then of disposing or dealing with this in the 
long-term is a new issue. The Iraqi Government does not have 
the capability to dispose of these things on its own. This 
needs to be done, although as long as we are there and can 
secure it in place, it is not probably at the top of the 
priority list of things to worry about with the Government of 
Iraq. So we are at the early stages of this.
    I think what will be the forcing function which will make 
this ratchet up a bit on the priority list is when Iraq accedes 
to the CWC and it takes on these responsibilities that it now 
has to deal with these weapons.
    Senator Reed. I would assume your organization would be 
central to the planning of the United States' participation and 
support for those efforts. Is that correct?
    Mr. Benkert. That is correct.
    Senator Reed. Are you working that issue right now 
aggressively? Because, again, flash forward 2 months, 6 months, 
5 years, et cetera. You have a country that is of questionable 
stability, but it has all these weapons and we missed the 
opportunity over 5, 6, or 7 years to destroy these weapons.
    Mr. Benkert. Particularly with the stockpile that Senator 
Dole mentioned, we are working through the options for what to 
do with this. As I said, the first focus is that it is secure, 
and then the second piece of this work is what are the various 
options to deal with this from the gold standard, which would 
be to find a way to destroy it all in what might well be very 
expensive and take some time, to other options. So we are in 
the midst of that now.
    Senator Reed. Thank you. Again, that is another topic of 
significant interest, and if you could share it----
    Mr. Benkert. I would be happy to come back.
    Senator Reed. Let me say once again that the record will 
remain open for 2 days in case my colleagues have additional 
questions.
    Thank you, gentlemen, for your excellent testimony. Thank 
you, Senator Dole, for your excellent questions.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                   proliferation security initiative
    1. Senator Reed. Mr. Benkert, in previous years the committee has 
asked the Department of Defense (DOD) to identify funds for the 
Proliferation Security Initiative (PSI) and to specifically request 
funds for PSI, if needed. What is the status of the PSI, what is the 
funding requested for fiscal year 2009 and what is the Cooperative 
Threat Reduction (CTR) doing to support PSI in both 2008 and 2009?
    Mr. Benkert. Since the President launched PSI in May 2003, the 
number of countries that have endorsed the PSI Statement of 
Interdiction Principles has increased to over 85. This growth reflects 
the widespread recognition that PSI serves a unique role in a multi-
faceted approach to nonproliferation. At the end of May 2008, PSI 
partners will commemorate the fifth anniversary of PSI in Washington. 
Senior leaders from all over the world will come together to take stock 
of the initiative since its inception and share ideas on how to 
strengthen it for the future.
    The President has requested $800,000 for the DOD to provide PSI 
exercise support in fiscal year 2009. These funds are available to 
combatant commanders to support PSI-related exercises, either U.S. or 
foreign-hosted. At this time, we do not see a need for additional 
funds. PSI is not a program in a traditional sense. It does not provide 
assistance to other countries on a bilateral basis. Rather, PSI was 
conceived as a flexible, adaptive initiative that leverages existing 
capabilities, activities and authorities rather than creating new ones. 
For example, PSI-related interdiction scenarios are often injected into 
existing military exercises, as was the case with U.S. Southern 
Command's (SOUTHCOM) Panamax 2007.
    DOD is working hard with our counterparts in the Department of 
State (DOS), Department of Energy (DOE), Department of Homeland 
Security (DHS), Department of Treasury, Department of Justice, 
Department of Commerce, and the National Security Council to prepare a 
budget report in response to a requirement contained in Public Law 110-
53. This report will provide additional information on the nature and 
amount of financial and non-financial resources that are leveraged to 
support PSI activities.
    CTR and PSI address distinct pieces of the weapons of mass 
destruction (WMD) proliferation problem and produce complementary 
outcomes. While PSI is fundamentally a political commitment that 
facilitates collaboration among like-minded countries and builds 
capabilities for interdicting WMD and missile-related shipments, their 
delivery systems and related materials to and from non-state actors and 
states of proliferation concern, CTR works on a bilateral basis to 
provide equipment and training that enhances a state's ability to 
detect and interdict WMD within or across its borders. In that regard, 
CTR has provided assistance to Azerbaijan, Uzbekistan, and Ukraine, all 
PSI participants, to improve their capabilities. While no more such 
assistance to Uzbekistan is contemplated, CTR will still be working 
with Azerbaijan in 2009, and will continue to work with Ukraine into 
the foreseeable future.

    2. Senator Reed. Mr. Tobey, the National Nuclear Security Agency 
(NNSA) budget request states that the NNSA ``provides real time 
technical and policy support for efforts by the United States 
Government to facilitate a wide range of counterproliferation and 
counterterrorism interdiction options.'' What exactly is NNSA doing and 
is this support to the PSI?
    Mr. Tobey. NNSA is a central technical resource that supports U.S. 
interdiction efforts. NNSA provides, and maintains the capability to 
provide, technical assistance to facilitate a wide-range of 
counterproliferation activities. DOE/NNSA headquarters manages this 
capability, which consists of dedicated technical experts located 
across the DOE/NNSA national laboratory complex who maintain the 
ability to monitor, track, and respond to interdiction-related 
activities in real-time, including technical assessments on suspect 
commodities and their potential use in a weapons program. These experts 
also provide technical support to NNSA policymakers to assist in the 
development and implementation of counterproliferation and 
nonproliferation policies and programs, including the PSI, the Nuclear 
Suppliers Group, the Missile Technology Control Regime, capacity-
building programs, export licensing requests, agreements for peaceful 
nuclear cooperation, and International Atomic Energy Agency (IAEA) 
Technical Cooperation. NNSA participates in all PSI policy meeting and 
training exercises, and develops tools, such as the WMD and Missile 
Commodity Reference Manual, which has been provided to the members of 
the Operational Experts Group of the PSI to raise awareness of the 
importance of dual-use commodities and equipment.

                               megaports
    3. Senator Reed. Mr. Tobey, the NNSA Megaports program provides 
radiation scanning equipment at foreign ports to scan shipments bound 
for the United States or elsewhere. There is a requirement to scan 100 
percent of the cargo coming into United States ports. NNSA plans to 
complete work at 32 of the 75 ports by the end of 2009. The Megaports 
budget is $134 million in fiscal year 2009, a $4 million increase from 
fiscal year 2008. Is there a way to increase the pace of this program, 
and what is the impediment--money, agreements, or something else?
    Mr. Tobey. The Megaports Initiative is working actively both to 
complete work at Megaports where agreements arc in place and to engage 
and sign agreements with new partner countries. According to current 
plans and budget, the Megaports Initiative will complete work at the 75 
ports mentioned above by 2013. Our conservative estimate is that we 
will be scanning approximately 50 percent of global shipping traffic 
once we have met this goal.
    Overall, increasing the pace of the program is limited by several 
factors. As you mentioned, engaging and signing agreements with partner 
countries can be a lengthy process depending on the country in 
question. We have learned that it is imperative to have the buy-in of 
the host country if the Megaports Initiative is to be successful and 
sustainable in the host country over the longer team. Additionally, 
resource constraints, both in terms of personnel and funding, do the 
limit the number of countries where we can work concurrently. With 
regard to the 100 percent scanning requirement, megaports is partnering 
with the DHS/Customs and Border Protection (CBP) in a pilot program 
under the Secure Freight Initiative (SFI) to scan 100 percent of U.S. 
bound maritime containers at select ports. This pilot program will 
certainly provide useful data but it is important to note that in 
general we believe that scanning every U.S.-bound container at a 
foreign port before it arrives in the United States poses significant 
operational, technical, and diplomatic challenges. It is our position 
that we must continue to focus our resources on the areas where we 
believe we can have the greatest impact and that potentially pose the 
greatest risk to U.S. national security. NNSA will continue to promote 
the use of a risk-based approach to guide implementation priorities as 
we move ahead with any future implementation of the Megaports 
Initiative and/or the SFI. This approach will allow us to utilize our 
resources and funding in the most effective way possible. NNSA plans to 
continue to work closely with host countries as well as the private 
sector to cost share where possible to accelerate scanning at foreign 
ports.

    4. Senator Reed. Mr. Tobey, the DHS has several programs working in 
overseas ports as well. Although the Megaports program predates the 
DHS, does it make sense to maintain programs in two departments at this 
point?
    Mr. Tobey. DOE and DHS each have important, distinct, and 
complementary roles in securing ports worldwide. It is the position of 
the DOE that these port security initiatives should continue to be 
maintained in two departments. DOE is the primary agency responsible 
for international deployments of radiation detection equipment under 
the Second Line of Defense (SLD) program of which Megaports is a part. 
DOE/NNSA is uniquely suited to carry out the mission of the Megaports 
program based on the years of experience we have in fostering 
relationships with foreign partner countries throughout the world 
through a variety of nonproliferation efforts. Additionally, DOE draws 
on the specialized expertise of the national laboratories and their 
decades of experience with the U.S. nuclear complex to implement the 
Megaports program. The laboratories play a key role in ensuring that 
the equipment we deploy can detect materials of concern and that our 
partner countries are trained well and arc capable of operating the 
system once it is formally turned over to the host country.
    With regard to the relationship between Megaports and the Container 
Security Initiative (CSI), DOE and DHS/CBP have built a strong, 
effective relationship and closely coordinate on the planning and 
implementation of their respective programs. The broad extent of 
coordination between Megaports and CSI is evident in the 20 joint 
outreach missions and port assessments that have been undertaken, the 
joint implementing agreements that have already signed, and efforts to 
identify additional opportunities to jointly implement both programs. 
For example, DOE has committed to providing radiation portal monitors 
at all of the 58 CSI ports.
    Under the SFI, consistent with the SAFE Ports Act of 2006 and the 
September 11 Act of 2007, DOE and DHS/CBP have expanded their 
partnership, working together to deploy radiation detection systems 
(DOE/NNSA) and nonintrusive imaging systems (CBP) and to integrate the 
data from both systems together and provide it to U.S.-based Customs 
officials to use in evaluating potential threats from U.S. bound 
containers. The first three SFI pilot ports (Puerto Cortes, Honduras; 
Port Qasim, Pakistan; and Southampton, United Kingdom) became fully 
operational on October 12, 2007. Overall, DOE is pleased with the 
success of these pilot projects in demonstrating that 100 percent 
scanning of U.S.-bound containers is possible on a limited scale. We 
also feel that our partnership with DHS on SFI implementation has been 
very successful with each side bringing its unique expertise to the 
SFI.
    Last, DOE also works closely with DHS' Domestic Nuclear Detection 
Office (DNDO) to shape the global nuclear detection architecture. DOE 
routinely exchanges information with DNDO to ensure that DOE's efforts 
support the comprehensive global nuclear detection architecture. In 
addition, DOE and DNDO are also jointly establishing operational 
requirements to support the development of future radiation detection 
systems. DOE supports DNDO's operational testing and evaluation program 
and continues to monitor DNDO technology development programs, as 
improvements in radiation detection equipment will benefit DOE 
international deployment efforts and help to further our 
nonproliferation goals.
    Overall, we strongly believe that the partnership between DOE and 
DHS results in a more comprehensive, layered approach to effectively 
deter, detect, and interdict smuggling of nuclear and radioactive 
materials through the global maritime system.

    5. Senator Reed. Mr. Tobey, will the countries, or the port 
operators, in which the equipment is placed be responsible for the 
long-term maintenance and replacement of this equipment?
    Mr. Tobey. Yes, the long-term maintenance of the equipment deployed 
under the SLD Program (both the Core Program and the Megaports 
Initiative) is the responsibility of the host country. Following 
installation and testing of a deployed radiation detection system, DOE 
enters a period of maintenance and sustainability support. Although a 
country-specific maintenance and sustainability plan is created for 
each country, DOE typically assists the partner country for a period of 
up to 3 years following installation and acceptance of a system. During 
this period, DOE provides spare parts and maintenance support to the 
host country. A key component of the program, both before and during 
this period, is training of host country personnel. All host country 
personnel who will be responsible for long-term maintenance activities 
are trained on each component of the radiation detection system so that 
they are ready to maintain the system once it is officially turned over 
to the host government.

                            border security
    6. Senator Reed. Mr. Tobey and Mr. Benkert, the CTR efforts to 
improve the border security of non-Russia former Soviet Union countries 
have increased substantially. The NNSA, through the SLD core program, 
is also focused on similar border security efforts. Both agencies are 
working in Azerbaijan, Kazakhstan, and Ukraine. How do you ensure that 
the border security and export control work in the former Soviet Union 
is coordinated and that there is no duplication?
    Mr. Tobey. DOE/NNSA's SLD and DOD's CTR programs coordinate closely 
on their border security programs in Azerbaijan, Kazakhstan, and 
Ukraine. Their efforts arc complementary, not duplicative. In response 
to a recommendation by the Government Accountability Office (GAO) in 
their May 2002 report ``U.S. Efforts to Help Other Countries Combat 
Nuclear Smuggling Need Strengthened Coordination and Planning,'' DOE/
NNSA and DOD/CTR have agreed that the DOE/NNSA SLD program will be the 
lead for installation of radiation detection systems at legal ports of 
entry outside the United States. Any deviations from this are carefully 
coordinated through meetings between DOE/NNSA and DOD/CTR at the 
management and project level, as well as at coordination meetings 
chaired by the DOS. Because DOD/CTR had started a program to install 
radiation detection at ports in Uzbekistan before this GAO 
recommendation, they completed the installation of this equipment at 
many border points in that country. DOE/NNSA now is assuming 
responsibility for funding the maintenance of those monitors. To 
eliminate uncertainty, DOE/NNSA and DOD/CTR signed a Memorandum of 
Understanding outlining respective agency responsibilities in 
Uzbekistan. DOE/NNSA and DOD/CTR work closely in Ukraine, where DOE/
NNSA is installing detection equipment at ports of entry and DOD/CTR is 
addressing the green border threat. The agencies have conducted joint 
exercises in Ukraine, have coordinated equipment purchases, and meet on 
a regular basis in the United States and jointly with their Ukrainian 
counterparts to ensure their efforts are coordinated. Both agencies 
also routinely coordinate their efforts in Kazakhstan and Azerbaijan.
    NNSA's International Nonproliferation Export Control Program 
(INECP), as part of the interagency Export Control and Related Border 
Security (EXBS) program coordinated by the DOS, assists countries of 
the former Soviet Union to develop and maintain effective national 
export control systems through long-term partnerships with counterpart 
technical experts and agencies that support export control licensing 
procedures and practices, industry compliance, and enforcement 
capacities. These activities, which are partially funded by EXBS, focus 
on controlling and interdicting WMD-related strategic ``dual-use'' 
commodities, and therefore do not duplicate the nuclear material 
interdiction activities sponsored by SLD or DOD/CTR.
    Mr. Benkert. The most frequent coordination between WMD-PPI and 
DOE's SLD is in regard to our project in Ukraine, where we are 
collaboratively engaged in enhancing the detection and interdiction of 
WMD and related materials in the Transnistria section of Ukraine's land 
border with Moldova. DOE's SLD program is installing radiation portal 
monitors and associated equipment at key ports of entry (PoEs) along 
this border, whereas the WMD-PPI project is providing WMD detection and 
interdiction training and equipment, and is installing a comprehensive 
surveillance/communications and command and control system designed to 
enforce capabilities along the whole border, with particular emphasis 
on the ``green'' border between PoEs. DOE has also collaborated with 
DOD in conducting exercises to evaluate the effectiveness of its 
assistance and the capacity of the Ukrainian Border Guard to absorb it, 
as well as collaborating on a comparative test of selected radiation 
pagers.
    WMD-PPI projects in Azerbaijan and Kazakhstan are maritime projects 
and do not overlap with SLD projects at the current time, although in 
Azerbaijan, both of our Azerbaijani interlocutors belong to the State 
Border Guard.
    WMD-PPI program officials work closely and regularly with DOE's SLD 
personnel to discuss ongoing and planned future projects and 
priorities, thus ensuring that land border projects are complementary 
and not duplicative. Additionally, DOE is currently maintaining 
radiation portal monitors which were installed by the DOD WMD-PPI 
program as an exception on a one-time basis (begun in a year in which 
DOE had a funding shortfall). The WMD-PPI program has no plans to 
install radiation portal monitors in any other country and considers 
DOE to be the U.S. Government lead for that type of assistance.

    7. Senator Reed. Mr. Tobey and Mr. Benkert, other agencies, such as 
the CBP Agency, the Department of Commerce, and the DOS are also 
engaged in related work. How do DOD and the DOE coordinate with other 
United States Government entities?
    Mr. Tobey. DOE/NNSA participates in coordination meetings chaired 
by the DOS, the National Security Council, and the Homeland Security 
Council, as well as project level meetings with CBP, the DOD, and the 
DOS. As an integral part of the U.S. maritime security strategy, DOE/
NNSA's SLD program has established a close partnership with CBP. A 
complementary relationship exists between SLD's Megaports Initiative 
and CBP's CSI, which permits the two agencies to jointly engage their 
partner countries and create valuable synergy between these important 
programs. Consistent with the SAFE Ports Act of 2006 and the September 
11 Act of 2007, this partnership has developed even further as SLD and 
CBP work together to deploy radiation detection systems (DOE/NNSA) and 
non-intrusive imaging systems (CBP) and to integrate the data from both 
systems together, thereby enhancing risk assessment tools for U.S. 
based Customs officials to use in evaluating potential threats from 
U.S.-bound containers. SLD and CBP access to foreign counterparts 
through these initiatives has been further leveraged by NNSA's INECP, 
resulting in the training of frontline inspectors in the interdiction 
of WMD-related dual-use commodities at dozens of ports worldwide. DOE/
NNSA's SLD and INECP work closely with DOS's EXBS program and the 
Global Initiative to Combat Nuclear Trafficking to ensure U.S. 
assistance is not duplicative with other U.S. Government programs. 
Through its Interagency Working Group, EXBS provides the venue for 
coordination between all U.S. Government programs that address border 
security in the region, where embassies as well are sufficiently 
informed to understand the intersection of relevant U.S. Government 
program missions.
    Mr. Benkert. DOD's CTR program supports other interagency and 
international donor efforts. In countries where we have WMD-PPI 
projects, the U.S. Embassy conducts monthly meetings among U.S. 
Government border security assistance program officials to ensure 
assistance is complementary and supports U.S. Government objectives.
    DOD is working with the DOS's EXBS and other assistance programs to 
bolster the abilities of the maritime forces of Azerbaijan and 
Kazakhstan to detect and interdict WMD and related materials on the 
Caspian Sea. We also coordinate with a U.S. Coast Guard officer 
stationed in Baku, who works with both governments' maritime forces to 
provide expert advice and assistance.
    DOD is working closely with the other U.S. Government and 
international donors, including DOE's SLD, to ensure assistance on the 
Ukrainian border with Moldova is complementary and reinforcing.
    DOD subject matter experts regularly consult with other U.S. 
Government experts and international donors, such as the IAEA and the 
European Union/Commission to share lessons learned and, to the extent 
practicable, standardize detection equipment.
    DOD officials from the policy and implementation (Defense Threat 
Reduction Agency (DTRA)) arenas are regularly called upon to 
participate in a variety of interagency fora and conferences hosted by 
the NSC staff and the DOS, DOE, and DHS and in the international arena 
(particularly the European Union and IAEA) to ensure WMD-PPI projects 
are complementary and do not duplicate the work of other donors.

                  cooperative threat reduction funding
    8. Senator Reed. Mr. Benkert, the CTR program has been appropriated 
on the order of $85 million above the fiscal year 2008 budget request, 
of which $79 million is available for expenditure for a total of $425.9 
million in fiscal year 2008. The committee recently received the 
notification of $405 million of the fiscal year 2008 funds. What in 
this notification was not planned when the fiscal year 2008 budget was 
submitted and how is this new work going to be sustained in fiscal year 
2009?
    Mr. Benkert. The additional $80 million appropriated in the fiscal 
year 2008 budget will be used for the following purposes:

         to eliminate one Delta III strategic ballistic missile 
        submarine;
         to install additional Automated Inventory Control and 
        Management System (AICMS) facilities at nuclear weapons storage 
        sites and refresh technology provided at the original AICMS 
        facilities (fully funded with fiscal year 2008 funds);
         to accelerate the Biological Threat Reduction program (an 
        ongoing project with its own funding allocation);
         to support the proliferation prevention project in Kazakhstan 
        (fiscal year 2009 funds requested);
         to fund storage of Ukraine's remaining SS-24s and reimburse 
        the Ukrainians for propellant removal from the SS-24 loaded 
        motor cases (fiscal year 2009 funds requested); and
         to contract for studies and assessments regarding new 
        initiatives outside the former Soviet Union.

    9. Senator Reed. Mr. Benkert, the CTR program budget request for 
fiscal year 2009 is approximately $11 million below the fiscal year 
2008 appropriated level, with no funds having been requested for 
proliferation prevention work outside of the former Soviet Union in 
2009. Why were no funds requested for work outside of the former Soviet 
Union?
    Mr. Benkert. The Department appreciates the changes provided by 
H.R. 1 and the National Defense Authorization Act for Fiscal Year 2009 
and currently is working diligently with other U.S. Government agencies 
to develop projects, within existing authorities, outside the former 
Soviet Union. Although most of our large-scale projects in Russia are 
nearly completed, DOD remains committed to implementing several major 
programs in other former Soviet Union countries. During the fiscal year 
2009 budget development process, DOD focused on completing these 
programs. At the same time, DOD was in the process of wrapping up the 
chemical weapons elimination project in Albania using existing funds, 
with no requirement for fiscal year 2009 funds.
    At the time the fiscal year 2009 budget was submitted, the CTR 
program had only begun to assess candidates for work outside the former 
Soviet Union. The Department looks forward to sharing the results of 
these assessments as they are developed.

    10. Senator Reed. Mr. Benkert, the February notification of CTR 
funds does not include work outside the former Soviet Union. What is 
the plan for that money ($10 million)?
    Mr. Benkert. A portion of the $10 million is being used to conduct 
the legislatively mandated studies by the National Academy of Science 
to analyze options for strengthening and expanding the CTR Program and 
to identify areas for cooperation with states other than states of the 
former Soviet Union in the prevention of proliferation of biological 
weapons.
    DOD is now in the process of developing criteria and has opened 
discussions with other U.S. Government departments and agencies to 
identify appropriate projects to undertake with countries outside the 
former Soviet Union. We expect to have our first results by summer. 
Based on these results, we will begin negotiations to establish the 
necessary framework to provide a capability to reduce threats and 
prevent the proliferation of WMD and WMD-related materials, technology, 
and expertise in the selected countries. We are also examining options 
for conducting CTR work in additional countries to see how we might be 
able to simplify the process to make the program more flexible and 
effective in the future.

    11. Senator Reed. Mr. Benkert, the February notification of CTR 
funds does not include the $5 million provided in fiscal year 2008 for 
chemical weapons destruction in Libya. What is the plan for that money 
and what is the status of the Libyan chemical weapons destruction 
effort? Is DOD going to take on that project?
    Mr. Benkert. Libya has not requested any further assistance since 
it chose to terminate joint efforts with the DOS. The DOS has completed 
construction of an incinerator, which currently is being held in 
storage. As we understand it, the Libyans now have decided to use their 
own funds to contract with companies to destroy these weapons, which 
are old blister agent weapons. We are in close contact with our 
colleagues at the DOS to see if any additional assistance is required.
    If no additional assistance is required, the Department would 
notify Congress of its intent to use the funds for other CTR purposes.

                         iraqi chemical weapons
    12. Senator Reed. Mr. Benkert, when is the study dealing with 
destruction and disposal options for Iraqi chemical weapons going to be 
completed, and when it is completed, would you please provide a copy of 
the study to this subcommittee?
    Mr. Benkert. The Office of the Secretary of Defense and the Joint 
Staff, in concert with U.S. Central Command, the military departments, 
and the DTRA, are assessing options for the final disposition of 
recovered chemical weapons found in Iraq, including the chemical 
weapons stored at the Muthanna State Establishment. The assessment 
requires a thorough technical feasibility review of each option, taking 
into account safety hazards, security and environmental risks, and 
potential implications and treaty requirements when Iraq accedes to the 
Chemical Weapons Convention. OSD will host a meeting of technical 
experts in June to review the feasibility of each of the options. 
Additionally, completion of the assessment is dependent on the results 
of a site survey at Muthanna. The site survey will take place in two 
stages. First, an initial site survey will develop the necessary 
courses of action for conducting a second, more intrusive site survey. 
The results of the site survey and
the meeting will determine if there is enough information to make a 
final recommendation, or if additional steps are required prior to 
making a final recommendation. At the conclusion of the assessment, we 
will be available to provide a summary of the findings and the 
recommended courses of action.

    [Whereupon, at 11:26 a.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
